<html>
<title> - REDUCING CHILDHOOD OBESITY: PUBLIC-PRIVATE PARTNERSHIPS TO IMPROVE NUTRITION AND PHYSICAL ACTIVITY IN CHILDREN</title>
<body><pre>[Senate Hearing 108-843]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-843

  REDUCING CHILDHOOD OBESITY: PUBLIC-PRIVATE PARTNERSHIPS TO IMPROVE 
          NUTRITION AND INCREASE PHYSICAL ACTIVITY IN CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING PUBLIC-PRIVATE PARTNERSHIPS TO IMPROVE NUTRITION AND INCREASE 
                     PHYSICAL ACTIVITY IN CHILDREN

                               __________

                        TUESDAY, OCTOBER 5, 2004

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



                    U.S. GOVERNMENT PRINTING OFFICE
96-393                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, OCTOBER 5, 2004

                                                                   Page
Frist, Hon. Bill, a U.S. Senator from the State of Tennessee, 
  opening statement..............................................     1
Wyden, Hon. Ron, a U.S. Senator from the State of Oregon, 
  statement......................................................     3
    Prepared statement...........................................     5
Dodd, Hon. Cristopher, a U.S. Senator from the State of 
  Connecticut, opening statement.................................     9
    Prepared statement...........................................    11
Harkin, Hon. Tom, a U.S. Senator from the State of Iowa, opening 
  statement......................................................    14
Snider, Dixie E., Jr., M.D., Acting Chief of Science, Centers for 
  Disease Control and Prevention, U.S. Department of Health and 
  Human Services, Atlanta, GA; and Lynn C. Swann, Sewickley, PA, 
  Chairman, President's Council on Physical Fitness and Sports, 
  U.S. Department of Health and Human Services...................    17
    Prepared statements of:
        Dixie E. Snider, Jr., M.D., MPH..........................    19
        Lynn C. Swann............................................    24
Potts-Datema, William, Chairman, Action for Healthy Kids, 
  Director of Partnerships for Children's Health, Harvard School 
  of Public Health, Boston MA; Ross C. Brownson, Professor of 
  Epidemiology, Saint Louis University School of Public Health, 
  St. Louis, MO, Member, Committee on the Prevention of Obesity 
  in Children and Youth, Institute of Medicine; and Gary M. 
  Destefano, President, USA Operations, Nike Corporation, 
  Beaverton, OR..................................................    39
    Prepared statements of:
        William Potts-Datema.....................................    41
        Ross C. Brownson, Ph.D...................................    45
        Gary M. DeStefano........................................    48

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Marshall Manson, Center For Individual Freedom...............    58

                                 (iii)

  

 
  REDUCING CHILDHOOD OBESITY: PUBLIC-PRIVATE PARTNERSHIPS TO IMPROVE 
              NUTRITION AND PHYSICAL ACTIVITY IN CHILDREN

                              ----------                              


                        TUESDAY, OCTOBER 5, 2004

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:22 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Bill Frist, 
presiding.
    Present: Senators Frist, Alexander, Dodd, Harkin, and Reed.

                   Opening Statement of Senator Frist

    Senator Frist [presiding]. Good morning.
    We are starting a few minutes late, but I do want to 
welcome everybody to this hearing on ``Reducing Childhood 
Obesity: Public-Private Partnerships to Improve Nutrition and 
Physical Activity in Children.'' This is an important hearing. 
We are starting a few minutes late because of votes on the 
floor of the U.S. Senate. The majority leader just did not know 
when to schedule votes. But people will be coming in shortly.
    I do want to start by thanking Chairman Judd Gregg for 
allowing me to chair today's hearing on a topic that is 
critically important to us today, a problem that is worsening 
every day. We will respond to our commitment to reversing what 
has become a true epidemic in health and in public health in 
this country, and to some extent around the world.
    Childhood obesity has reached epidemic proportions, and 
``epidemic'' is not a word that we should use casually. When we 
use the word ``epidemic'' or ``epidemic proportions,'' one 
simply need look at the data. The number of obese children 
between the ages of 6 and 11 who are in kindergarten to fifth 
grade has tripled over the past 3 decades.
    Ten percent of American children are clinically obese 
today, and more than 30 percent of American children are 
overweight. That is, one out of three children in the United 
States of America today is overweight.
    The numbers are significant because we know that being 
overweight, being obese, translates directly into having a 
lower quality of life than one's peers, and the translation is 
direct. They suffer significantly higher rates of Type 2 
diabetes, for example. In my own field of cardiovascular 
disease, they clearly suffer from being overweight and obese. 
Cardiovascular disease is a term that includes the number one 
killers in America today, when you couple stroke, vascular 
disease and congestive heart failure, and sudden death.
    These young children are more likely to suffer 
musculoskeletal problems--problems of muscles and bones and 
movement, and that includes degenerative joint disease, disc 
disease--and they suffer from a higher number of psychosocial 
problems, including depression, and problems of the lung or 
pulmonary complications.
    After adolescence, children who are overweight have a 70 
percent chance of becoming overweight or obese adults. 
Individuals who are obese have a 50 to 100 percent increased 
risk of premature death. Obesity causes about 400,000 deaths 
each year. We will talk a lot about the issues, but poor 
nutrition and lack of physical activity is second only to 
smoking as the leading cause of death in the United States.
    Nonetheless, with a sustained effort and a strong element 
of national leadership--and I hope that is reflected by this 
hearing today and by my presence at this hearing--we can 
improve this situation. It is reversible. It is something that 
we can do something about.
    That is why we are here today, to focus not on the 
problem--because we can define the problem over and over and 
over--but on solutions and on innovative solutions and on what 
we can do to set policy, working with the private sector to 
accomplish that goal of reversing the trends that are so 
evident in this epidemic.
    Earlier this year, the CDC announced that smoking among 
high school students has dropped to its lowest level in more 
than a decade. That is good news. Fewer students now say that 
they have ever tried cigarettes. The CDC gives part of the 
credit to effective anti-smoking media campaigns and anti-
smoking education in the classrooms. That is encouraging news. 
It shows that with sustained effort, indeed, progress can be 
made in the issues of public health and public health in 
children.
    It should energize us in the battle against childhood 
obesity. The recent CDC report demonstrates that aggressive 
education can steer kids away from harmful behaviors through 
healthier choices.
    This committee has taken a leadership role in developing 
legislation to begin to address this growing public health 
crisis. Last year, I joined with my colleagues, a bipartisan 
group--Senator Chris Dodd, Senator Jeff Bingaman, Senator Jeff 
Sessions, Senator Mike DeWine, Senator Lamar Alexander--to 
author the ``Improved Nutrition and Physical Activity Act,'' or 
IMPACT. That legislation passed the U.S. Senate last December, 
and we will build on these bipartisan efforts to continue to 
address childhood obesity.
    I would like to welcome our first witness, Senator Ron 
Wyden of Oregon, who is with us today. Senator Wyden and I 
teamed up to sponsor the ``Childhood Obesity Reduction Act.'' 
We clearly believe, as you will hear shortly, that 
intervention, with community and school support, is key to 
preventing lifelong obesity and obesity-related illnesses.
    We will hear more about the details in that bill, which we 
obviously are very, very excited about.
    I am very pleased that the Senate has been able to work 
across party lines on issues such as this. I am committed 
personally as a Member of this Committee, as a physician, as a 
United States Senator, and indeed, as majority leader, to 
continue to fight against childhood obesity and to use all the 
tools within the power of us as Senators to reverse this 
growing epidemic. It is serious. It is a significant public 
health threat. It is fairly new in terms of history--we are 
talking about the last 30 or 40 years--and in many ways, that 
gives me hope, because it shows something that for years and 
years and years was not a problem and then has become an acute 
problem over several decades, and now we are at a critical 
point in history where we can reverse it--not just we, but we 
working hand-in-hand through innovative and creative 
partnerships.
    I do want to welcome all of our witnesses today, and I look 
forward to hearing your testimony.
    We have three panels today, and I know there are certain 
time constraints, so we will move through the panels fairly 
expeditiously.
    What I would like to do--and I will turn to my colleagues 
to see if it would be okay--is to allow Senator Wyden to go 
ahead and begin the first panel, and after that, allow them to 
make statements at that juncture.
    Senator Wyden?

 STATEMENT OF HON. RON WYDEN, A U.S. SENATOR FROM THE STATE OF 
                             OREGON

    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Chairman, let me tell you how much I appreciate being 
here and being with you especially. I think it is pretty 
obvious that the Senate Majority Leader in the last week--or 
what we hope will be the last week--of the session has one or 
two things on the plate. And the fact that you are here and 
that you are leading this hearing is, I think, further evidence 
of how serious you think the problem is. I appreciate that 
leadership and particularly the chance to team up with you.
    I think it is also fair to say that Senator Harkin has been 
prosecuting this cause for a long, long time--he has his own 
bill and a lot of very good initiatives in it--Senator Kennedy 
as well, and Senator Reed, who has long been an advocate for 
kids. This has the makings of a good bipartisan partnership.
    Mr. Chairman, with your leave, if I could just put my full 
statement in the record and just highlight a few of my concerns 
this morning.
    Senator Frist. Without objection.
    Senator Wyden. First, I think that from a statistical 
standpoint, you have laid it out. You cannot overstate the 
enormity of this problem.
    Across the country, as our kids slouch in front of TVs and 
video game consoles, they are being stalked by this silent 
killer known as obesity. I think this committee understands 
what we are up against. Members introduced their own 
legislation. And our bipartisan bill, the bill that you and I 
have introduced, is based on the proposition that kids are not 
going to be able to escape this killer all by themselves. Far 
too few grownups have been working to assist them, and part of 
the problem is that a lot of those adults are facing the same 
killer as well.
    What I hope we can do with our legislation is jump-start a 
nationwide, community-based mobilization against this killer--
and it is fair to say if you are going to ask the country to 
mobilize, the Congress has got to lead the way. Kids are not 
going to change their eating and exercise habits by osmosis, so 
adults, and particularly the Congress, are in a position to 
speak out and to lead.
    From the standpoint of my own State, the Centers for 
Disease Control has said that at least 31 percent of the low-
income kids between the ages of 2 and 5 in Oregon are 
overweight or at risk of becoming overweight. My sense is that 
the country has a choice. We can either step in now and act 
with the kind of legislation that we have introduced and other 
members of this committee have introduced, or we can 
essentially commit ourselves to playing catch-up ball for years 
and years to come. We will be playing catch-up ball in terms of 
health care.
    Certainly, if you look at the diabetes statistics, just as 
an indication of that, diabetes is killing three times as many 
people in Oregon today as it did 15 years ago. And certainly, 
from the standpoint of being overweight and obese, you are 
increasing the risk of youngsters for diabetes, and this will 
lead to that spiral of more chronic illnesses.
    So the choice, as I say, is that we can either act 
aggressively today, or we can play catch-up ball for years and 
years from the standpoint of health and finances. And 
certainly, if you look at the toll that diabetes takes, we are 
now at the point in terms of annual U.S. medical expenditures 
where we are spending $75 billion in 2003 dollars, and half of 
those expenditures, Mr. Chairman and colleagues, are now 
financed by Medicare and Medicaid.
    So I will close by way of saying that there are really two 
steps that we are trying to take in our bill, the Frist-Wyden 
legislation, the ``Childhood Obesity Reduction Act.'' The first 
is based on the idea that it would be useful to have a one-stop 
shop to fight obesity. We do that by creating a congressional 
council so that through a website, you can get state-of-the-art 
information out across the country to those who are looking in 
schools and public-private programs for programs that work.
    So, for example, in the first part of our legislation, the 
education part, if a teacher sees a study, for example, like 
the one that was recently released showing that 30 minutes of 
activity can help combat childhood obesity, but the school does 
not have the resources, or has had their physical education 
program cut, through the website, that teacher will be able to 
find out about schools and programs in a similar situation and 
know where to turn. For example, say they were a school 
strapped for resources or had had their P.E. program cut. They 
would be able to find out that Nike, which is fortunately 
located in my home State, a Fortune 500 program, is willing to 
step up to the plate and help them establish a program along 
those lines in a school that is strapped for resources.
    The second part of our legislation, Mr. Chairman and 
colleagues, assumes that we are not just going to get this done 
by having a congressional committee act once and pass one piece 
of legislation, but we are going to need to have an ongoing 
basis for not only getting the information out but for making 
resources available. So our legislation establishes a 
congressional council as well to run a foundation that would 
assist both in terms of education and resources.
    So let us say, for example, that you have an urban school 
that is trying to get youngsters to eat a few more vegetables 
and a few less french fries--certainly a problem that we are 
seeing on a widespread basis. Not only can we through the 
foundation get information out to those schools, but the 
foundation would have the resources, for example, to provide 
that low-income urban school some seed money so that that urban 
school could set up a garden that would produce fresh produce 
and help to change the way that youngsters look at food.
    The last point that I would make, Mr. Chairman, is I think 
we ought to learn from some of the lessons that this committee 
and colleagues have tackled aggressively. If you look, for 
example, to parallels with respect to tobacco, my sense is that 
some of the lessons that we have learned in terms of fighting 
youth smoking can also be applied as we tackle this question of 
childhood obesity.
    So I think all of us here have the same goal, and that is 
to get America's kids healthy. The challenge is going to be 
tough, because there is a lot of food out there that tastes 
pretty good but is not particularly nutritious, and there are 
video games that do not burn any calories but sure are an 
entertaining way to spend an afternoon.
    So I think with these kinds of efforts and the good work 
that this committee has done, we can mobilize the country and 
have the Congress take the lead and beat this, as you correctly 
characterize it, epidemic of obesity among kids.
    Senator Frist. Thank you very much, and I personally 
appreciate your strong advocacy, passionate advocacy, for 
reducing childhood obesity. It has been a real pleasure working 
with you on this huge challenge for the American people.
    [The prepared statement of Senator Wyden follows:]

                  Prepared Statement of Senator Wyden

    Across this country, on couches in front of televisions and 
video game consoles, a silent killer called obesity is stalking 
America's youngsters--in epidemic numbers.
    This committee has a sense of the implications of this 
obesity epidemic, because several of you have had a long 
interest in solving this issue. In particular, I want to 
commend Senators Harkin, Kennedy and Gregg.
    Senator Frist and I have introduced a bipartisan bill based 
on the proposition that children can't escape this killer on 
their own. And far too few grownups are working to save them--
one reason being that the grownups are fighting the same 
killer, too. What Majority Leader Frist and I hope to do with 
our legislation is to jump-start a nationwide, community-based 
campaign against this menace. There must be a national 
mobilization to help our kids grow up healthy. And when I say 
the country must mobilize, I am calling on this committee and 
this Congress to lead the way. Just as children won't change 
their own eating and exercise habits by osmosis, so the adults 
of this country will not take up the fight against obesity 
without leadership and help.
    Let me share with you just one devastating example of the 
problem: In my home State of Oregon, obesity may well become 
the number-two killer of our citizens--after tobacco, the 
number-one killer nationally.
    According to the Oregon Department of Human Services, fully 
22 percent of the adults in Oregon are obese and 60 percent are 
overweight. The Centers for Disease Control found the obesity 
rate among Oregon adults increased by 86 percent from 1990 to 
2002. Even more tragic, and why we are here today, is that CDC 
says at least 31 percent of low-income children between 2 and 5 
years of age in Oregon are overweight or at risk of becoming 
overweight. A lot of those overweight kids are going to become 
overweight and obese adults if we just sit on our hands today. 
We're going to end up playing medical catch-up ball, and 
financial catch-up ball, for the rest of their lives.
    Here's an example for you: Diabetes kills three times as 
many people in Oregon today as it did 15 years ago. The truth 
behind that figure is, that being overweight or obese 
dramatically increases a child's risk for diabetes--and that 
can lead to more chronic illnesses. Diabetes is the leading 
cause of kidney disease, heart disease, amputation and 
blindness. The Centers for Disease Control and Prevention 
estimates that due to this epidemic of obesity, one in three 
Americans born in the year 2000 will develop diabetes in their 
lifetime and for minorities that number jumps to nearly half.
    Think about that. A lot of folks in this room have children 
and grandchildren who are young right now, or still on the way. 
And the numbers don't look good for the kids that we love. And 
those numbers don't measure the emotional toll that illness 
takes on a child, their families and others who love them.
    The financial costs are staggering as well. In January, 
research was released showing the cost of obesity to our health 
care systems. The research looked at adult obesity health care 
costs and concluded: annual U.S. medical expenditures because 
of obesity are estimated at $75 billion in 2003 dollars, and 
approximately one-half of these expenditures are financed by 
Medicare and Medicaid.
    And if we do nothing to help our children get fit and stay 
fit, those figures will only grow as more overweight kids 
become overweight adults. Obesity among children is up. But the 
dollars being spent now, on their obesity-related diseases in 
childhood, are just a drop in the bucket compared to what we're 
going to have to spend. Many obesity-related diseases are 
chronic and lifelong. Again, it's a prescription for catch-up 
ball.
    Here's how the Frist-Wyden bill, the Childhood Obesity 
Reduction Act, will work to turn the tide against childhood 
obesity. There are TWO ways this will happen.
    First, it will give teachers, parents and other community 
leaders a one-stop shop to fight obesity. The Congressional 
council created by this bill will launch a comprehensive 
website to help everyone from PE teachers to scout leaders 
learn what's working in schools and public-private programs. 
But it doesn't stop there--it will also offer advice on 
connecting with those successful programs and adapting them in 
their own schools.
    Let me give you a real-world example of how this component 
will work: When a teacher sees a study like one that was 
released recently showing that 30 minutes of activity can help 
combat childhood obesity, but the school doesn't have the 
resources or has had to cut their physical education program, 
that teacher could go to the website and see what others in a 
similar situation have done to remedy that problem. They would 
be able to see there are partners like Nike who are willing to 
step up to the plate and help with programs. But that teacher 
might also see that physical activity is only one part of the 
solution and they might find ways to bring in the nutritional 
aspect as well through other programs that have already proven 
successful.
    The website will also offer help in establishing goals for 
cutting childhood obesity at that school or in that community--
and all these plans will have been evaluated by outside experts 
for their effectiveness.
    That's the first component of our bill. Here's the second.
    Secondly, once the one-stop shop is established, it will be 
time to move to the next level. We're not setting up a 
permanent congressional committee where politicians can take 
root and it all gets run from the government.
    After 2 years, the Congressional council turns the work 
over to a brand-new foundation. The foundation will keep the 
one-stop website up and running. But at the same time, they'll 
be able to raise money, and use it to reward programs that work 
and fund programs that are sorely needed where childhood 
obesity threatens most.
    Here's an example of how the second component of our bill 
would work: say an urban school wants to work on getting kids 
to choose vegetables instead of French fries--which would be a 
huge step in the battle against childhood obesity. When they 
visit the website, they may find a successful program about 
actually growing fresh vegetables--so they don't think 
vegetables just come from a freezer or a can. The Foundation 
will have the wherewithal to do more than just share that 
information--they may be able to provide the seed money, 
literally, for a school garden that will grow fresh produce, 
and change the way those children look at food.
    It is not realistic to think that children won't be in a 
situation where unhealthy choices for foods and snacks are 
available. The goal ought to be help them know what the healthy 
choices are, how to balance what they eat and drink so they 
make better choices and to know that they need exercise--
particularly if they want to have that not so nutritionally 
perfect snack. And the foundation can keep pursuing those goals 
for the long term.
    As I close, let me share with you another startling fact 
about obesity: spending on obesity-related medical care is 
starting to rival the spending related to smoking. We know the 
toll tobacco-related diseases have taken on our citizens and on 
health care costs. When you consider that obesity-related 
illnesses are following that terrible track, how can we refuse 
to act to help our children avoid a future of disease and 
illness?
    I've spent a good part of my public service fighting Big 
Tobacco and working to make sure kids can grow up without 
having cigarettes thrown at them and ads enticing them. And 
over time, the many actions of individuals, organizations and 
government have had success in slowing the number of kids 
addicted to nicotine. We can't let up on that effort, and now 
we must also act to help our kids become fit and stay fit.
    It doesn't take a rocket scientist to figure out that these 
two killers--tobacco and obesity--have a lot in common. Big 
tobacco targets younger Americans and children around the world 
because those who begin smoking earlier in life tend to stay 
hooked longer. Children who don't learn good eating and 
exercise habits tend to carry that weight on into adulthood. I 
believe the lessons of the successful effort that has been 
waged against childhood smoking can and should be applied in 
the campaign against childhood obesity. That means taking 
action now.
    I know that members of this committee feel as passionately 
about this issue as I do. What our legislation has in common is 
an emphasis on addressing both sides of the equation--nutrition 
and physical activity. One without the other will not make our 
children healthy. But I do believe that the Wyden-Frist bill is 
significant because it will create an immediate, one-stop 
resource, in the form of a website, about what we know is 
working now so that individuals can begin to mobilize their 
communities and help their children. Senator Harkin's proposal 
for example, also has an emphasis on research and preventive 
services; I think those are also important steps in assisting 
our children become healthy adults.
    All of us have the same, simple goal here: getting 
America's children healthy. There are a lot of folks competing 
for our kids' attention in this arena. A lot of the competition 
is pretty attractive: food that's not so nutritious but sure 
tastes good, and video games that don't burn any calories but 
can occupy you for an entire afternoon. It's tough for kids to 
make good choices on their own. That's why it's time to 
mobilize this Nation--and particularly this Congress, by way of 
legislation--to beat the epidemic of obesity plaguing our 
children.
    Senator Frist. I have, in order of arrival this morning, 
Senators Harkin, Reed, and Dodd. Tom, would you like to proceed 
now with an opening statement or questions. We can go ahead and 
do opening statements here, if you like, or questions for Ron.
    Senator Harkin. Thank you, Mr. Chairman.
    I would like to make an opening statement, but I don't want 
to keep Senator Wyden here. I know we are all busy at this time 
of the year. I just wanted to thank Senator Wyden and you, Mr. 
Chairman, at the outset for your interest, your leadership in 
this area. We can all learn from one another. I think we are 
all basically pulling in the same direction, and if we just get 
all our harnesses together, we can make some great headway, if 
not this year--I know we are coming to a close in the 
Congress--but with your leadership in the Senate and your 
leadership on this committee and your stature as a physician 
and your own healthy lifestyle, I think we can really make some 
moves here and get ahead of this ball game.
    I will have more to say in my opening statement, but I 
particularly wanted to thank Senator Wyden and you, Mr. 
Chairman, for your leadership in this area, and I would like to 
reserve my time just to make an opening statement.
    Senator Wyden. And without turning this into a bouquet-
tossing contest, let me be clear--I am very much aware that 
Senator Harkin has been prosecuting this cause for a long time, 
and you have a good bill, and we are anxious to all work 
together.
    Senator Frist. And one of the exciting things over the 
course of the morning will be the great individual efforts, and 
now is the time to really pull a lot of that together over the 
coming days, weeks, and months. That is going to be the 
message, I think, coming out of this hearing today.
    We will come back for opening statements.
    Let me turn to Senator Reed for questions for Senator 
Wyden, and then Senator Dodd, and then what we will do is come 
back and allow Senator Wyden to depart if he needs to, or he is 
welcome to come to the dias and observe from the dias as well.
    Senator Reed?
    Senator Reed. Mr. Chairman, I simply want to thank you for 
arranging the hearing and thank Senator Wyden not only for his 
testimony today but for his efforts in many respects, but 
particularly with regard to children.
    Thank you.
    Senator Frist. Thank you.
    Senator Dodd?

                   Opening Statement of Senator Dodd

    Senator Dodd. Thank you, Mr. Chairman, and I thank you as 
well, Ron, for your work in this regard.
    This is a critical issue, and I think your passion and your 
interest in it are well-placed.
    I can recall a while back when Senator Bingaman and the 
majority leader and I introduced the IMPACT bill, which is a 
very modest bill, really, to put some resources into this. 
There were actually editorial comments around the country that 
sort of ridiculed the effort somehow, that now the government 
was going to tell you what to eat and what not to eat, and the 
notion that somehow we were overstepping our bounds by even 
engaging or discussing the issue.
    Senator Harkin. ``Nanny government.''
    Senator Dodd. They called us ``nanny government'' by 
talking about it, and what a foolish notion--yet that idea 
permeated a lot of the journalistic comment on the subject 
matter.
    And of course, the statistics scream out to the contrary--I 
know you have cited some of them already, Ron, but they are 
worth repeating--from the Institute of Medicine on this 
epidemic--and it is an epidemic--that is occurring in the area 
of obesity, particularly with kids.
    The prevalence among children ages 2 to 5 and 12 to 19 
years of age has doubled since the 1970's. Even more troubling, 
we now know that the rate of obesity has tripled over the same 
period of time for children between the ages of 6 and 11.
    This alarming report tells us that there are currently more 
than 9 million obese children over the age of 6.
    Of additional concern, of course, is the cost. We have 
talked about it again here, but it deserves repeating. We have 
often talked about children's obesity and the growing 
relationship to Type 2 diabetes. This is truly alarming. As the 
chairman knows all too well, the deadly disease was once 
commonly referred to as ``adult-onset diabetes.'' Sadly, this 
term can no longer be used to refer to a disease that 30 
percent of boys and 40 percent of girls are at risk of 
developing due to the growing problem of childhood obesity.
    Just as troubling as the physical dangers associated with 
child obesity are the related emotional and psychological 
problems that many overweight and obese children face as a 
result of significant stigma surrounding obesity. Sadly, the 
growing prevalence of childhood obesity has not lessened its 
negative image. Overweight and obese children often face 
ridicule and scorn by their peers. Such treatment can lead to 
long-term and debilitating psychological burdens as well.
    We as a society cannot ignore the great financial cost the 
IOM report attributes to the tripling of obesity related to 
hospital costs for children and youth to $127 million for the 
years 1997 and 1999.
    There are two factors, obviously. The eating problem is 
obviously there, and physical inactivity, and we have talked 
about these.
    One of the concerns that I have raised in the past, and I 
know Senator Harkin has and Senator Reed has, is that if we 
look at poor school districts, they too often end up signing 
contracts with food providers that insist that their products 
be sold exclusively during school hours. And they need the 
money because they are broke, and they are relying on a 
desperately poor constituency to supply the necessary property 
taxes to support their school effort.
    It is one of the great tragedies, in my view, that we allow 
this to continue, where these kids have no other choices during 
the school year but to eat some of the products that are being 
sold through the vending machines and the like.
    Forty percent of our children watch more than 2 hours of 
television a day, under-age kids, just sitting there day after 
day. It has become the child care situation of choice for 
people who cannot afford the $6,000 to $10,000 a year per child 
that is the average cost of a private child care setting. If 
you have two or three children, and you are making $35,000 a 
year, the math is not complicated--TV becomes the choice 
babysitter, child care provider.
    So, Mr. Chairman, I will ask unanimous consent that the 
remainder of these opening comments be included in the record.
    Senator Frist. Without objection.
    Senator Dodd. I would hope that in the waning days, the 
Senate would unanimously pass the bill that Senator Frist and 
Senator Bingaman and I introduced a couple of years ago, on 
which the House has yet to take up action. It would not take 
much to put that on the consent calendar in the next 72 hours 
before they adjourn and send it down to the President for his 
signature. It would put some money in flow to the States for 
grant applications to begin to deal with the issue.
    As I said, it is a rather minor bill--I am not suggesting 
that this is in any way going to solve the problem--but it is 
sitting out there in the House of Representatives--passing 
unanimously here. There are not many bills that go through here 
unanimously, but I think it is an indication of the common 
concern that we all share about this growing problem.
    So, thanks, Mr. Chairman, for doing the hearing today.
    I know you are busy as majority leader, so to take time--
the majority leader taking the time to conduct a hearing in the 
waning days of the session, I think speaks volumes, one about 
this Member, but also about the seriousness of this issue.
    And I thank Ron, of course, for his continuing leadership 
on these issues, and I am not surprised that Tom Harkin and 
Jack Reed would be here caring about it as well given their 
long history and involvement with these issues.
    Thank you, Mr. Chairman.
    Senator Frist. Thank you.
    [The prepared statement of Senator Dodd follows:]

                   Prepared Statement of Senator Dodd

    Good morning, Mr. Chairman, and thank you for convening 
today's important hearing on the issue of promising initiatives 
to address the growing problem of childhood overweight and 
obesity.
    As you know, Mr. Chairman, the costs of overweight and 
obesity are simply staggering. Both the United State Surgeon 
General's Call To Action To Prevent and Decrease Overweight and 
Obesity and the just-released Institute of Medicine (IOM) 
report, Preventing Childhood Obesity: Health in the Balance, 
estimate that each year we lose close to 400,000 Americans--
more than 1,000 lives each and every day--as a direct result of 
obesity. The financial costs of obesity and overweight also 
cannot be ignored, Mr. Chairman. The same reports estimate that 
the economic cost of obesity in the United States was more than 
$117 billion in 2000 alone. And tragically, we learned earlier 
this year that obesity will soon overtake smoking as the number 
one cause of preventable death in our Nation.
    For our Nation's children, Mr. Chairman, the toll that 
obesity and overweight extracts is even more severe. With the 
release just last week of the report by the IOM, we know that 
we literally face an epidemic of childhood obesity. We know 
that the prevalence of obesity among children aged 2-5 and 12-
19 years has doubled since the 1970s. Even more troubling, we 
know that the rate of obesity has tripled over the same time 
period for children between the ages of 6 and 11. This alarming 
report tells us that there are currently more than 9 million 
obese children over 6 years of age.
    Of additional concern, Mr. Chairman, are the costs 
associated with childhood obesity, be they physical, emotional, 
or financial. Childhood obesity's growing relation to type 2 
diabetes is truly alarming. As the Chairman knows all too well, 
this deadly disease was once commonly referred to as ``Adult 
Onset Diabetes.'' Sadly, this term can no longer be used to 
refer to a disease that 30 percent of boys and 40 percent of 
girls are at risk of developing due to the growing problem of 
childhood obesity.
    Just as troubling as the physical dangers associated with 
childhood obesity are the related emotional and psychological 
problems many overweight and obese children face as a result of 
the significant stigma still surrounding obesity. Sadly, the 
growing prevalence of childhood obesity has not lessened its 
negative image. Overweight and obese children too often face 
ridicule and scorn from their peers. Such treatment can lead to 
long term and debilitating psychological burdens.
    Additionally, we as a society cannot ignore the great 
financial costs associated with the childhood obesity epidemic. 
The IOM report points to the tripling of obesity-related 
hospital costs for children and youth to $127 million for the 
years of 1997-99.
    We know, Mr. Chairman, that overweight and obesity are as 
result of two factors--unhealthy eating choices and physical 
inactivity. And while we all enjoy foods that may not be in our 
best interest at certain times, when we combine unhealthy 
eating habits with a lack of physical activity we are literally 
courting serious health risks. The lack of physical activity in 
the United States is truly alarming, with less than one-third 
of adults engaging in the recommended amounts of physical 
activity. Add to this the fact that more than 40 percent of our 
children watch more than 2 hours of television each day, and it 
becomes apparent why we are growing heavier as a society.
    The situation for children is even more dire when you 
consider the predicament facing many of America's schools and 
their ability to provide meaningful physical education. Right 
now, only 8 percent of elementary schools provide daily 
physical education. With funding tight, and with the new 
requirements of No Child Left Behind, many schools are being 
forced to make difficult budgetary decisions. Understandably, 
they're doing everything they can to keep class sizes small and 
to avoid laying off teachers in courses like English, math, and 
science. Unfortunately, the result is that physical education 
is often first on the chopping block.
    As the Ranking Member of the Subcommittee on Children and 
Families, I am particularly concerned that many of our children 
face unhealthy food choices at the one place where they spend 
most of their time--their schools. And while I realize that 
some schools enter into contractual obligations with food 
providers so that they can earn needed dollars that in turn 
fund valuable school services such as music, art, and athletic 
programs, I am concerned that funding shortages should not pit 
needed services against the best interest of our children's 
health.
    Despite all of this very disturbing information, our Nation 
is just now beginning to realize the gravity and scope of the 
obesity epidemic. Sadly, many would have us believe that there 
are quick-fix solutions to the problem of obesity. While it's 
true that in the past we've successfully eradicated public 
health threats like smallpox and polio, obesity is a different 
kind of disorder. As best we can tell, there is no miracle cure 
for obesity that comes in the form of a pill or a shot. What is 
needed to address obesity today is an aggressive, multifaceted 
strategy. It needs to incorporate both the public and the 
private sectors. And it needs to be implemented at every 
level--from the Federal Government all the way down to 
individual families. We need to recognize that everyone bears a 
share of the responsibility for this problem, and that everyone 
should be part of the solution.
    Based on these ideas, Senators Frist, Bingaman, and I have 
introduced the Improved Nutrition and Physical Activity Act, or 
IMPACT. I'm happy to say that this legislation, in modified 
form, passed the Senate unanimously late last year. I'm hopeful 
that before this year is out, the House of Representatives will 
pass it as well so it can become law. Admittedly, IMPACT is a 
first step--not a complete solution. Certainly, none of us 
believe that this bill, should it be signed into law, will by 
itself solve the problem of obesity.
    The actual provisions in the legislation are fairly modest 
ones. IMPACT takes three basic steps. First, it expands 
existing Federal grant programs so they can be used to help 
fund obesity treatment, education, and prevention. Second, it 
authorizes a number of new studies that will help us learn more 
about the scope and nature of obesity. Finally, IMPACT 
establishes a number of demonstration projects for new 
initiatives aimed at reducing obesity so we can learn which 
approaches work, and which ones do not.
    All in all, as I said, these measures are modest. But they 
are a good start. And IMPACT serves an important purpose aside 
from its specific provisions--by outlining a basic strategy for 
addressing this obesity epidemic in the United States.
    Mr. Chairman, most kids in America are familiar with the 
saying, ``you are what you eat.'' But few of them know what 
that really means. It's time that they learn the difference 
between a calorie and a carbohydrate. It's time that all 
Americans--adults as well as children--learn basic facts about 
sugars, fats, and all the other figures that you can find on 
the package of virtually every item of food you can buy in 
America today. I've always believed very deeply that a good 
education can open the door to a lifetime of opportunity. By 
the same token, a good education about proper nutrition can 
open the door to a longer, fuller, and healthier life.
    Education about nutrition, though, will matter little 
unless Americans have the opportunity to choose to eat healthy 
foods. For many American children, their choice of lunch each 
day is determined by what's on the menu in the school 
cafeteria, or what's available in a vending machine. However, 
low-income Americans have their choices restricted for a very 
different reason: they can only eat what they can afford to 
buy. For these Americans, it's not just enough to make healthy 
foods available. We need to make them affordable as well. Drive 
through a low income neighborhood in America today, and you can 
find a fast-food restaurant on virtually every block. But how 
many of these neighborhoods have stores that carry fresh, 
quality produce and other nutritious foods at affordable 
prices?
    It won't be easy to turn the tide on obesity, and childhood 
obesity in particular. It will require a long-term, sustained, 
comprehensive, national effort that changes hearts, minds, and 
lifestyles. But at the same time, obesity is, above all, a 
disorder that we ourselves have the power to prevent. I have 
every confidence that if we make the necessary commitments, we 
can find a solution to this very serious national problem, just 
as we have solved so many crises that have confronted our 
Nation in the past.
    Lastly, Mr. Chairman, let me thank you for your leadership 
on this issue. The toll of overweight and obesity on our 
Nation's health clearly cannot be dismissed. I look forward to 
continuing working with you, as well as other committee members 
and our witnesses today, to advance meaningful Federal 
initiatives to combat childhood obesity.
    Senator Frist. Senator Wyden, thank you for being with us, 
and again, you are welcome to join us to observe from the dias.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Frist. What I would like to do is introduce the 
second panel, and then I would be happy to turn to Senator 
Harkin for his opening statement.
    If I could ask the second panel to come forward as I 
introduce them.
    Dr. Dixie Snyder is chief science officer for the Centers 
for Disease Control and Prevention. He provides guidance on the 
scientific integrity and quality of agency programs and 
assistance in resolving controversial scientific issues and 
holds the rank of Assistant Surgeon General Rear Admiral.
    Lynn Swann does not need an introduction. He is a member of 
the NFL Hall of Fame, as we all know, for his outstanding 
career as a receiver in the NFL, winning four Sugar Bowls with 
the Pittsburgh Steelers.
    Senator Dodd. Super Bowl.
    Senator Frist. Super Bowl. What did I say?
    Senator Harkin. Sugar Bowl.
    Senator Frist. You may as well; you need them all.
    [Laughter.]
    They were sweet. Lynn Swann is here with us today as chair 
of the President's Council on Physical Fitness and Sports. I 
have had the opportunity to know Mr. Swann and his deep-felt 
commitment for improving the health of others, for a healthier 
lifestyle but also for a healthier America. So I appreciate 
both of you being with us today.
    Let me turn to Senator Harkin again. He deferred his 
opening statement, and I would like for him to make that now. 
Again, it is a real pleasure to turn to him because on so many 
of the issues that I am committed to, he has led the way for 
years and years and years, and it gives me a great deal of 
pleasure to join him and, really, all of my colleagues here 
today in addressing these major public health crises that 
sometimes get pushed to the background, yet we see that they 
are emerging in ways that are destructive to society.
    Senator Harkin?

                  Opening Statement of Senator Harkin

    Senator Harkin. Mr. Leader, you are overly generous and 
overly kind. Again, I just respect you so much in your efforts 
in this regard, both professionally as our leader but also in 
your own personal example of your healthy lifestyle and the 
example you set for others. That is very, very important, and I 
just want to thank you for having this hearing.
    I was delighted to join with you and, actually, with 
Senator Dodd and Senator Bingaman. We sent a letter in May to 
have a hearing on obesity. I know we are all busy, but I think 
the fact that we are now having this hearing under your 
leadership is very, very important. You are the leader of the 
Senate, and as I said earlier, because of your status as a 
physician, I think that puts a heavy stamp on what we are doing 
here. I know you are very busy this week, and this says 
something, the fact that you would be here today to do this.
    So again, I really look forward to working with you and so 
many others on this critical issue. You did say that. You said 
it was a critical point, that we have reached a critical point. 
And a number of leading health experts are now predicting that 
this generation of kids growing up today could be the first to 
live a shorter lifespan than their parents. That is amazing. A 
significant reason for this is the obesity epidemic, which is 
about to overtake tobacco as the number one killer in our 
society.
    By now, the devastating effects of obesity on child health 
are quite well-known. I do not need to go through that. But I 
did want to hold up here and note the Institute of Medicine's 
report that just came out on ``Preventing Childhood Obesity.'' 
It has it all right in there.
    I think what the Institute of Medicine has shown, Mr. 
Chairman, is that half measures will not work. You cannot just 
focus on one thing and think it is going to solve it. It has to 
be a very comprehensive national response. It is a clarion call 
to us as individuals, families, as well as schools, employers, 
communities, and the food industry. But most of all, it is a 
clarion call to Congress for us to act boldly.
    The blueprint for action set forth in this report, I am 
pleased to say, tracks very closely a bill that I have 
introduced, S. 2558, the ``Healthy Lifestyles and Prevention 
Act.'' Again, it is comprehensive. As Senator Wyden said, I 
have been involved in this for some time. I remember in 1996 on 
the farm bill, I introduced an amendment to take vending 
machines out of schools. As you can see, I was spectacularly 
unsuccessful with that amendment. We could just never do 
anything.
    Go back to 1978, when the FTC promulgated some proposed 
regulations on advertising to kids, and the hue and cry that 
went up at that time; and in 1980--Senator Dodd was on his way 
over here, but I was still in the House--we passed legislation 
that took away the authority of the FTC to regulate advertising 
to kids.
    Mr. Leader, I bet very few people know that today as we sit 
here, the FTC has more authority to regulate advertising to you 
and me and Senator Dodd and all the adults here than it does to 
our kids or grandkids. That is a fact.
    So something has got to be done about this. It is just like 
other things. We have a highway bill. You ask what does a 
highway bill have to do with obesity. In Europe today, you 
cannot build a bridge unless you have a walking path or a bike 
path attached to it. Look at what we do here in America. My two 
kids went to a public high school not too far from here in 
Virginia. It is a mile from our house. I wanted them to walk. 
It is a good deal--walk to high school and back--one mile, that 
is no big deal--except there are no sidewalks, and we are on a 
busy street. I would not let them ride a bike down that street 
because it is a busy thoroughfare. So, no sidewalks even to get 
to school.
    We are building subdivisions in America today without 
sidewalks. How can kids walk to school if there are no 
sidewalks, or if they cannot get across a bridge because there 
are no pathways?
    So I am just saying that it has got to be comprehensive. 
``No Child Left Behind,'' for example--we are all for making 
sure kids test out and that we do not leave any child behind, 
but Mr. Leader, there is no test for kids on their physical 
fitness--none. We want kids to be smart, yes, but part of life 
is also being physically fit, too. There is nothing in there on 
that.
    We have elementary schools today being built without 
playgrounds. That ought to be unconscionable--elementary 
schools built without playgrounds. The average elementary 
school kid in America today gets less than 1 hour a week of 
P.E.--less than 1 hour. That is average. That is just 
unconscionable that we would go down that path.
    And then, the marketing of food to our kids--as I said, 
since 1973, the industry has had a self-appointed regulatory 
body, but look how effective it has been. Right now, the 
industry is spending about $12 billion a year bombarding kids 
with junk food ads. Just watch your Saturday morning TV shows 
and see that. That is all it is.
    We go to high schools, and we see all these vending 
machines that Senator Dodd talked about. In every vending 
machine now, you get a 20-ounce Coke--I do not mean to pick on 
Coke--Pepsi, RC Cola, the whole thing.
    It was Dr. Kelly Brown who pointed out to me once, and I 
found it startling, that one 20-ounce cola has 15 teaspoons of 
sugar. How many parents would send their kids to school in the 
morning and measure out 15 teaspoons of sugar and say, ``Here, 
you can have that''? Well, make it double; we will double that. 
Yet they will think nothing of them going and getting a 20-
ounce soda out of the vending machine--15 teaspoons of sugar.
    So when it comes to that kind of thing, we have got to 
think about foods in schools, physical activity. And the 
workplace--of course, that has nothing to do with children and 
childhood--but that has to be part of it, too.
    But in fact, as you said, Mr. Chairman, Mr. Leader--and you 
are right--you have got to get at the kids. It is how we start 
our lifestyles, what we do at an early age.
    One last thing I would just mention--not that I am trying 
to pat myself on the back or anything--but in the last farm 
bill, we put in a pilot program in four States, one Indian 
reservation, giving free fresh fruits and vegetables to kids--
free--not during the lunch hour, not in the lunch room, but 
during the day, any time they wanted them. From the time they 
walked in the door to the time they left, they could get fresh 
apples, pears, kiwi fruit, grapes, oranges, bananas, all that 
kind of stuff--free--no questions asked.
    We did that in four States. It has only been 2 years now, 
but you should look at the success of this. The teachers love 
it; the principals love it; the kids love it. And guess what? 
We have had testimony in our Appropriations Committee of 
schools that have actually taken vending machines out because 
they are not being used anymore, because the kids are eating 
the fresh fruits and vegetables. That is only 100 schools in 
America. This needs to be expanded out so that these kids can 
get the free fresh fruits and vegetables that they need.
    So there are all kinds of things that we need to do, and we 
need to do it in a collaborative effort. I believe that all 
aspects need to be addressed, and that is where the private 
sector can come in and help greatly. I thank Nike. I have read 
their testimony and what they are doing. I do not mean to 
single them out, but they should be; they are doing good stuff.
    That is the private sector. We can do it here in Congress. 
We need to work with school boards and school districts. And we 
also do need some regulatory authority. Maybe people do not 
like that. They talk about ``nanny government.'' I am sorry. 
When the FTC has more authority to regulate advertising to you 
than it does to my grandkids or kids, there is something wrong. 
We need to have that kind of regulation as a part--it is not 
one thing--but as part of the overall picture of addressing 
childhood obesity.
    Mr. Leader, you have been very kind to give me this time, 
and I thank you very much. I share with you this passion that 
we have got to get to these kids early on in life, and it has 
got to be a comprehensive type of approach.
    Thank you.
    Senator Frist. Thank you, Senator Harkin.
    I could not help but think as you talked about the four 
States and the 100 schools--Senator Wyden and I in our bill, 
the ``Childhood Obesity Reduction Act,'' want to take and set 
up a mechanism to take that sort of success and publicize it, 
celebrate it, because when you hear about it, it makes sense, 
especially if the results are very positive, to spread that 
around the country. But it is one of the issues that, when 
people look at our bill, they will see that we have the vehicle 
to accomplish just that.
    Let us turn to our panelists. I have introduced you, Dr. 
Snider, so let us start with you, followed by Mr. Swann, and 
then we will come back and ask questions, and we will start the 
questioning with Senator Reed when he comes back.

   STATEMENTS OF DIXIE E. SNIDER, JR., M.D., ACTING CHIEF OF 
   SCIENCE, CENTERS FOR DISEASE CONTROL AND PREVENTION, U.S. 
DEPARTMENT OF HEALTH AND HUMAN SERVICES, ATLANTA, GA; AND LYNN 
   C. SWANN, SEWICKLEY, PA, CHAIRMAN, PRESIDENT'S COUNCIL ON 
  PHYSICAL FITNESS AND SPORTS, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Dr. Snider. Thank you, Mr. Chairman.
    As a former house officer at Vanderbilt, I appreciate the 
opportunity to participate in today's hearing.
    Members of the Committee and Mr. Chairman, we really 
appreciate the support that you have given to us for all of our 
chronic disease efforts, particularly in this area.
    Today I will present a brief overview of our overweight 
epidemic in our Nation's children and identify some of the 
Department of Health and Human Services' initiatives and 
programs designed to combat the combined epidemics, as you 
indicated, of poor nutrition, physical inactivity and obesity. 
I will submit my written comments to the record.
    Since 1980, as has been mentioned, the prevalence of 
overweight has more than doubled among children and tripled 
among adolescents. The latest data available from CDC from the 
NHANES, the National Health and Nutrition Examination Surveys, 
show that between 1999 and 2002, 16 percent of children and 
adolescents were overweight, and another 15 percent were at 
risk for overweight. The increases in overweight among children 
and adolescents cut across all regions of the country, all 
ages, all racial and ethnic groups. However, we do know that 
African American, particularly females, and Mexican American 
youth, particularly males, are more overweight compared to 
white youth.
    As we know, the primary concern of overweight and obesity 
is one of health, but as has been mentioned, there are issues 
of appearance and the impact on the child.
    Most of the disease associated with overweight and obesity, 
of course, occurs later on in adults, but children who are 
overweight often develop risk factors for diseases such as Type 
2 diabetes, high blood pressure, and elevated cholesterol 
levels. Sixty percent of overweight children have at least one 
additional risk factor for cardiovascular disease, and 25 
percent have two or more.
    As has already been mentioned, Type 2 diabetes, which we 
used to see only in adults, is strongly associated with 
obesity, and it was virtually unknown in children and 
adolescents 10 years ago. We saw Type 1 diabetes, juvenile 
diabetes; we did not see Type 2. But today it accounts in some 
communities for more than 50 percent of the diabetes we see.
    Childhood overweight is also associated with 
discrimination, poor self-esteem, and depression.
    Overweight adolescents have a 70 percent chance of becoming 
overweight or obese adults--and that is very disturbing. 
Childhood overweight that persists into adulthood is typically 
more severe than overweight or obesity that develops during 
adulthood. For example, in the Bogalusa Heart Study, 50 percent 
of those with severe obesity--that is a body mass index of 
equal to or more than 40--had onset of overweight in childhood.
    So, successfully combatting the overweight epidemic in our 
Nation as already alluded to will require the involvement of 
many sectors and many levels of society, and although the 
national initiatives that you have spoken about are very 
important, they are not going to be sufficient by themselves. 
We believe that community-based initiatives are critical for 
reaching Americans where they live, where they work, where they 
play, where they go to school. And we believe that State-level 
programs are critical for supporting the community-based 
programs.
    So we work at all levels. The CDC has multiple approaches 
to address obesity and its risk factors, including funding 
State health departments, school-based programs, the national 
media campaign, and community-based programs. There is the 
``Steps to a Healthier U.S.'' cooperative agreement program 
which is designed to promote programs that reduce the burden of 
chronic disease and address those risk factors. In addition, 
CDC funds 28 State health departments to prevent and reduce 
obesity and its related chronic disease.
    CDC also funds 23 State departments of education to 
implement coordinated school health programs to help ensure 
that students receive instruction in nutrition, physical 
activity, and tobacco use.
    You may have heard of the CDC's youth media campaign, 
``VERB--It is What you Do.'' It is the largest national 
multicultural campaign designed to increase levels of physical 
activity among youth. The impact of this campaign has been 
demonstrated. After 1 year of the campaign, the average 9- to 
10-year-old in the Nation engaged in 34 percent more sessions 
of free time physical activity when compared to children who 
were unaware of VERB. This is a promising program that needs to 
be continued.
    Two recent initiatives tied to obesity are the Food and 
Drug Administration Obesity Working Group, which, among other 
things, is going to identify ways to help consumers lead 
healthier lives through better nutrition; and of course, the 
National Institutes of Health development of an Obesity 
Research Task Force which will evolve into a strategic plan for 
obesity research.
    The Department and the U.S. Department of Agriculture will 
host a National Obesity Prevention Conference this month to 
address this public health concern. What we are trying to do is 
learn from past and current research and identify steps that we 
can take right now to prevent further increases in the 
prevalence and severity of obesity.
    We know that no one strategy, as has already been 
mentioned, will be sufficient for promoting physical activity 
and healthy eating. Our chances for success will be greatest if 
we use multiple strategies to address multiple risk factors and 
if we involve multiple sectors of society.
    As Senator Harkin just mentioned, the Institute of Medicine 
report has a lot of good things in it and underscores the 
importance of these strategies.
    So we are prepared to lead a national effort to combat the 
overweight epidemic. We are committed to doing all we can do to 
help the children in our Nation enjoy good health now and for a 
lifetime.
    Thank you for your attention, and I am happy to answer any 
questions that you might have.
    Senator Frist. Good. Thank you, Dr. Snider, and thank you 
for your leadership. I have had the opportunity to visit the 
CDC on this very topic, and I appreciate the real leadership 
there.
    [The prepared statement of Dr. Snider follows:]

         Prepared Statement of Dixie E. Snider, Jr., M.D., MPH

    Mr. Chairman, Members of the Committee, thank you for this 
opportunity. I'm Dr. Dixie Snider, Acting Chief of Science at the 
Centers for Disease Control and Prevention (CDC), which is part of the 
U.S. Department of Health and Human Services (DHHS). Today, I'll 
present an overview of the overweight epidemic among children and 
adolescents and identify a number of DHHS initiatives and programs to 
combat this epidemic.
    Since 1980, the prevalence of overweight has more than doubled 
among children and tripled among adolescents. The latest data available 
from CDC shows that, between 1999 and 2002, 16 percent of children and 
adolescents were overweight, and another 15 percent were at risk for 
overweight. The increases in overweight among children and adolescents 
cut across all regions of the Nation, ages, and racial and ethnic 
groups; however, more African-American and Mexican-American youth are 
overweight compared to white youth.
    The primary concern of overweight and obesity is one of health and 
not appearance. An estimated 400,000 adult deaths and $117 billion in 
costs each year in the U.S. are associated with obesity. Most of the 
disease associated with overweight and obesity occurs in adults, but 
children who are overweight often develop risk factors for diseases 
such as type 2 diabetes, high blood pressure, and elevated cholesterol 
levels. Sixty percent of overweight children have at least one 
additional risk factor for cardiovascular disease, and 25 percent have 
two or more. Type 2 diabetes, which is strongly associated with 
obesity, was virtually unknown in children and adolescents 10 years 
ago; today, it accounts for almost 50 percent of new cases of diabetes 
among youth in some communities. Childhood overweight is also 
associated with discrimination, poor self-esteem, and depression.
    Furthermore, overweight adolescents have a 70 percent chance of 
becoming overweight or obese adults . . . and childhood overweight that 
persists into adulthood is typically more severe than overweight or 
obesity that develops during adulthood. For example, in the Bogalusa 
Heart Study, 50 percent of those with severe obesity (a BMI >= 40) had 
its onset in childhood.
    Overweight and obesity represent a major long-term public health 
crisis. If not reversed, the gains in life expectancy and quality of 
life seen in recent decades will erode, and more health-related costs 
will burden the Nation. Overweight and obesity result from an imbalance 
between caloric intake and caloric expenditure. Many factors have 
contributed to the unfavorable trends in physical activity and 
nutrition that have fueled the obesity epidemic. Consequently, there 
will be no silver bullet, no single change strategy to solve these 
problems. Multiple strategies addressing multiple factors, such as 
physical inactivity and excessive television viewing, will be needed. 
The critical challenge is to help young people and their families adopt 
healthy eating and physical activity behaviors. The Institute of 
Medicine's recent report, Reducing Childhood Obesity: Health in the 
Balance, underlines the importance of all of these strategies.
    Addressing overweight and obesity is a top priority for DHHS 
Secretary Thompson. I'll briefly describe seven key components of the 
Department's comprehensive, multi-component approach to reduce 
overweight and obesity.
    First is providing strong, national leadership through President 
Bush's Healthier U.S. initiative and Secretary Thompson's Steps to a 
HealthierUS initiative, which promotes community programs that motivate 
and enable responsible health choices. At the heart of this program 
lies both personal responsibility for the choices Americans make and 
social responsibility to ensure that policy makers support programs 
that foster healthy behaviors and prevent disease. The Steps initiative 
envisions a healthy, strong, U.S. population supported by a health care 
system in which diseases are prevented when possible, controlled when 
necessary, and treated when appropriate. The Steps Cooperative 
Agreement Program is part of this initiative. This program aims to help 
Americans live longer, better, and healthier lives by reducing the 
burden of diabetes, obesity, and asthma and addressing three related 
risk factors--physical inactivity, poor nutrition, and tobacco use. In 
fiscal year 2003, $15 million was provided to 23 communities to support 
innovative community-based programs that are proven effective in 
preventing and controlling chronic diseases. In fiscal year 2004, $44 
million will be used to increase funding to existing Steps communities, 
fund new communities, and fund one or two national organizations to 
enhance the capacity of Steps communities. Secretary Thompson announced 
the awarding of these grants to 40 communities on September 28th. 
President Bush and Secretary Thompson requested $125 million in the 
Department's fiscal year 2005 budget for new and continuation grant 
awards through the Steps initiative.
    Second is developing and delivering clear, effective messages to 
ensure that consumers have the information they need to improve their 
health. Some of the key DHHS vehicles for delivering health messages to 
the public include the Dietary Guidelines for Americans, jointly 
developed with USDA every 5 years; the National Cancer Institute's 5 A 
Day for Better Health Program to promote fruit and vegetable 
consumption; and the President's Council on Physical Fitness and 
Sports. Also, FDA is examining innovative ways to deal with the 
increase in obesity and identify ways to help consumers lead healthier 
lives through better nutrition, starting with reexamining the food 
labeling Nutrition Facts Panel on most packaged foods. Further research 
is necessary to establish how the food label can assist consumers to 
make easier weight management decisions. But FDA is targeting food 
label improvements in the areas of calories, serving sizes, 
carbohydrates, and comparative labeling statements that will help 
consumers make more informed and healthier food product choices in the 
context of the total daily diet.
    DHHS is communicating health messages directly to children through 
``VERB,'' CDC's media campaign to increase physical activity among 
``tweens,'' children aged 9 to 13. Campaign strategies include 
multimedia advertising and marketing promotions using television, 
radio, print, and Web sites; as well as contests and community events. 
After 1 year, campaign impact has been demonstrated by reports of 
increased free-time physical activity among the Nation's 10 million 
tween girls, 8.6 million 9-10 year olds, and 6 million tweens from low- 
to moderate-income households.
    The third component is monitoring the problem and programs to 
address the problem. CDC produces nationally representative data on the 
prevalence of overweight and dietary and physical activity behaviors 
among young people through its ongoing National Health and Nutrition 
Examination Survey. In addition, CDC has surveillance systems in place 
to collect national, State, and city data on height and weight, 
physical activity, and diet among high school students, as well as data 
on school physical activity and nutrition programs.
    The fourth component is identifying and addressing research gaps. 
The National Institutes of Health fund studies to develop and evaluate 
interventions designed to prevent childhood overweight and promote 
physical activity and healthy eating among young people. In addition, 
CDC is developing a mechanism to quickly deploy staff into communities, 
worksites and schools to help evaluate promising nutrition, physical 
activity, and obesity prevention strategies.
    The fifth component is synthesizing research findings to identify 
effective policies and programs. CDC and NIH are involved in a number 
of research synthesis activities to identify what works. For example, 
CDC is working to translate the recommended strategies within the 
physical activity and obesity chapters of the Guide to Community 
Preventive Services into usable program guidelines and 
recommendations--essentially providing a ``how-to'' guide for 
practitioners to implement science-based interventions in their 
communities, schools, and workplaces.
    The sixth component is developing and disseminating research-based 
tools to help schools and community-based organizations implement 
effective policies and programs. These include, for example, CDC's 
School Health Index for Physical Activity and Healthy Eating: A Self-
Assessment and Planning Tool; and Power of Choice, an after school 
program jointly developed by FDA and the U.S. Department of Agriculture 
(USDA) to help pre-teens make better food and physical activity 
choices.
    The seventh and final component is helping community and State 
agencies and organizations implement effective programs. Last week 
Secretary Thompson announced 22 grants to support communities 
implementing the Steps to a HealthierUS initiative to help Americans 
live longer, healthier lives. These grants support innovative, 
community-based programs proven effective in reducing the burden of 
diabetes, overweight, obesity and asthma and addressing risk factors 
such as physical inactivity, poor nutrition and tobacco use in 40 
communities including large and small urban, rural, and tribal areas. 
The Secretary also announced the first Steps to a HealthierUS award to 
a national organization--the YMCA to help build strong partnerships 
with local communities and promote better health and prevent disease 
among all Americans.
    Fiscal year 2004 funding has enabled CDC to support obesity 
prevention programs in a total of 28 States. Examples of State health 
department activities that are helping children and adolescents include 
encouraging restaurants to make fruit and vegetables more available; 
improving lighting, sidewalks and crosswalks in neighborhoods as well 
as cleaning up and reclaiming vacant lots for use as physical activity 
and play areas; and training health care professionals to promote 
behavior changes.
    In addition, CDC provides funding to 23 States for the 
implementation of school-based policies and programs to promote 
physical activity and healthy eating among young people. State 
education agencies are strengthening school health policies, improving 
curricula, implementing professional development activities, and 
involving families and communities.
    CDC, NIH, FDA and other DHHS agencies will lead the Nation in 
conducting the research necessary to learn more about strategies to 
prevent overweight among children and adolescents. We know, however, 
that there are no quick fixes when it comes to losing weight; it is 
only through proper diet and physical activity that we can maintain and 
improve our health. We know that no one strategy alone will be 
sufficient and that our chances for success will be greater if we use 
multiple strategies to address multiple factors that contribute to 
caloric imbalance and if we involve multiple sectors of society at the 
community, State, and national levels. DHHS is leading the national 
effort to combat the obesity epidemic in children through a 
comprehensive, multi-faceted, multi-level approach. We are committed to 
doing all that we can to help our young people enjoy good health now 
and for a lifetime.
    I thank you for your interest and the opportunity to share this 
information with you. I would be happy to answer any questions at this 
time.

    Senator Frist. Mr. Swann?
    Mr. Swann. Thank you, Mr. Chairman.
    I am going to ask that my statement be made part of the 
record, and I will attempt to hit some of the highlights.
    Senator Frist. Your entire statement will be made a part of 
the record.
    Mr. Swann. Thank you.
    As a native Tennessean, Mr. Chairman, I do understand, 
since my grandmother and grandfather wanted me to attend the 
University of Tennessee, that anyone from the great Volunteer 
State always has the Sugar Bowl on his mind as a part of the 
SCC. So I understand that.
    Senator Frist. The Bowls needed you 2 nights ago, by the 
way.
    Mr. Swann. Senator Dodd, it is good to see you again; 
Senator Harkin, Senator Reed, it is a pleasure to be here 
before you.
    We at the President's Council on Physical Fitness and 
Sports have recommended for quite some time that the children 
of this Nation have 60 minutes of exercise each day for 5 or 
more days each week to attain the health benefits of vigorous 
physical activity. There are just far too many children who do 
not have the opportunity to have that kind of physical 
activity, for a variety of reasons which I will touch on just a 
little bit later.
    But considering that this committee is meeting to discuss 
partnerships between various organizations to reach young kids 
in the area of obesity, I want to highlight a few of the 
partnerships that the President's Council on Physical Fitness 
and Sports has maintained for a number of years.
    Each year, the General Mills Champions Program awards 50 
grants, $10,000 each, to children to be involved in community-
based groups to implement innovative programs to help youth 
improve their nutrition and fitness behaviors. In the last 2 
years, over 20,000 students competed in the 6 week activity 
program and received Presidential recognition. General Mills is 
now pledging to sponsor up to 50,000 youth a year.
    The American Association of Clinical Endocrinologists 
cosponsored a publication, ``Take the President's Challenge: 
www.presidentschallenge.org,'' as a prescription for physicians 
to hand out to children when they came in to visit their 
doctors.
    The Coca Cola Company has a Step With It Program, 
partnering with the President's Challenge Program to encourage 
school children to be active.
    The Kellogg Company continues to promote physical activity 
for very young children, age birth to 5, to parents and 
caregivers through a publication cosponsored with the 
President's Council on Physical Fitness and Sports called 
``Kids in Action.''
    Blue Cross and Blue Shield Association's ``Walking Works'' 
partnered with the President's Council on Physical Fitness and 
Sports to produce and print a walking guide designed to help 
Americans of all ages.
    In addition, there are many other companies and programs 
that we have worked with over the years. As a matter of fact, 
tomorrow, Secretary Thompson will join me and Kay Coles James, 
director of the Office of Personnel Management, to issue a 
challenge to all Federal employees, the Healthier Feds Physical 
Activity Challenge. So we are challenging all Federal agencies 
to get involved and sign up on the President's challenge.
    I spoke at the Mayo Clinic not too long ago. At the Mayo 
Clinic in Rochester, MN, they have a phenomenal facility for 
all of their employees that is free, for them to come to this 
facility to work out and to engage in physical activity, 
because they believe in the importance of physical activity.
    In about 2 weeks, I will be in Omaha, NB, where the Union 
Pacific Railroad Company is going to open up and highlight 
their new office complex, over 1 million square feet. They have 
taken the time to include a very extensive wellness program 
within that facility for all of their employees to be able to 
come in, to get physical activity at various times of the day 
when it is more convenient for them, on site, to encourage that 
kind of physical activity.
    When we talk about obesity as it relates to children, our 
children have and always will continue to learn by example. If 
their parents are not physically active, if they do not 
encourage their children to be active, regardless of what we 
teach them or attempt to teach them in school, these children 
will not be physically active.
    So it is important that we make sure that our adults get 
the same message and have the same opportunities that our 
children have to be more physically active. And then we have to 
have that continuing education program with our children.
    We spend $117 billion a year on obesity and obesity-related 
illnesses and diseases. We spend $139 billion on diabetes. That 
is $250 billion a year that we spend in preventable areas 
through physical activity. Not all of it is for bad reasons in 
terms of why we have gotten to this point. Obesity just did not 
jump up. Indeed, there are people who are thin, who look 
absolutely wonderful, whose health is probably not as good as 
someone who is overweight, because they do not exercise. And if 
you are looking for a reason, part of it is our own success--
the innovation of the computer, the Internet, the games that we 
do, the technology--we no longer have as much of a need for a 
large labor force. Our automotive industry, our industrial 
segment, goes to robotics, so there is not that need.
    And when is the last time you actually saw a man digging a 
ditch? I will tell you when you saw him digging a ditch. There 
was one guy sitting on the backhoe and three guys pointing to 
where he should dig. That was the last time you saw a guy 
digging a ditch.
    All of those things are good. What we are really talking 
about here is an overwhelming lifestyle change--a lifestyle 
change. We in America love our conveniences. We can have the 
greatest shop, the greatest store; it will be five blocks down 
the street--and we will get in our car, and we will drive 
there, and we will go through the drive-through and get our cup 
of Starbucks coffee or anything else we want, as opposed to 
walking there.
    And Senator Harkin, when was the last time you went by a 
school and saw a bicycle rack full of bicycles? We do not see 
it. And it is not necessarily for bad reasons. We feel 
sometimes that we need to drive our kids to school, we need to 
make sure they get there safely. We want them to be safe after 
school and not be wandering around, influenced by any bad 
segments of our society.
    So what do we have to do? We have to create opportunities 
for everybody to participate in areas of physical activity. 
Sport is a wonderful way of doing it, because you get all the 
benefits while you play a game. But in many of our schools, the 
only people who participate in sports are the best athletes, 
because that is all the school can afford.
    We need to still find opportunities for all children to 
participate. My oldest brother is five-foot-six, he is 135 
pounds, and he is a dentist. He loved to play basketball when 
he was in high school, so he played on the ``D'' basketball 
team because he was one of the small guys; and he competed in 
track. Most high schools today only have a junior varsity and 
the varsity team, so if you are not the best athlete, you do 
not get a chance to play.
    We need to make sure that we create those opportunities for 
our kids to have that balance. And it is a balance--it is 
nutrition, and it is physical activity.
    I will close by giving you one example. A college football 
player, offensive or defensive lineman, who weighs anywhere in 
Division 1-A football between 250 and 310 pounds will eat in 1 
day 6,000 calories. That is a huge amount of food. But look at 
all that that young man is doing in the course of a day--the 
weight training, the running, getting around campus. Six 
thousand calories for some of those athletes is barely keeping 
that weight on because of the high level of physical activity.
    There is a balance. If you take in 1,500 calories a day and 
you only get physical activity of 1,000 calories a day, your 
net gain is 500 calories a day, and you will gain weight. It is 
very simple. We do not need a magic pill to understand that 
there is a balance to what we do, and we need to find a way to 
make sure that our children are eating well, eating the proper 
foods, getting the right amount of physical activity to balance 
what goes in, so that if they are going to live longer, and 
when they do live longer, it will be a better quality of life.
    Thank you.
    [The prepared statement of Mr. Swann follows:]
                  Prepared Statement of Lynn C. Swann
    In a Presidential Proclamation earlier this year (May 8, 2004), 
President George W. Bush stated,
    ``By exercising regularly and participating in sports, we can 
improve our health, set a positive example for our children, and help 
build a stronger future for our country.''
    In the last century, our Nation made striking advances in public 
health. The chief enemy was infectious disease, such as tuberculosis, 
pneumonia, bacterial infections, and diseases caused by contaminated 
water and food.
    By the end of the 20th century, we could look back with pride at 
the enormous victories we achieved by creating drugs and adopting 
hygiene practices that have dramatically reduced the gravest threats to 
public health.
    At the beginning of the 21st century, our Nation faces a deadly 
health crisis with the potential to do great damage from a cause that 
until recently has not been a major threat. We are in the midst of an 
obesity epidemic caused by poor diet and sedentary lifestyles. We are 
eating too much and moving too little.
    The latest figures released recently by the Centers for Disease 
Control and Prevention show that 400,000 people a year--almost 1,100 
Americans a day--die from conditions related to physical inactivity 
combined with poor diet. Only smoking kills more people--435,000 people 
a year. The gap is closing fast. However, if the numbers keep growing 
at the same rate as they did during the past decade, physical 
inactivity and poor diet might overtake smoking as the leading cause of 
preventable death in the United States.
    Sixty-four percent--that's two thirds of American adults--are 
overweight or obese.
    As Chairman of the Council, I feel especially responsible for the 
health of millions of our children. Fifteen percent of our children and 
adolescents are overweight--9 million young people. The percentage is 
even higher for African American, Hispanic, and Native American 
children--over 20 percent. Ten percent of our little ones age 2 to 5 
are overweight. Type 2 diabetes and cardiovascular risk factors such as 
high blood pressure are showing up in young children.
    Only about one-half of U.S. young people (ages 12-21 years) 
regularly participate in vigorous physical activity. According to a 
study done by the National Association of Sports and Physical Education 
(NASPE), children should engage in at least 60 minutes of physical 
activity daily and should not be sedentary for more than 60 minutes at 
a time except when sleeping. On average, children in the U.S. watch 18 
hours of TV a week. As Secretary Thompson says, ``We need to get our 
children away from the Play Station and out on the playground''.
    What if there were a drug that helped reduce the risk of developing 
or dying from heart disease, stroke, high blood pressure, type 2 
diabetes, colon cancer, osteoporosis, arthritis, depression and 
anxiety? We'd probably demand that it be put in the public water 
supply. Everyone would clamor to have access to this magic pill.
    Let me tell you that such a remedy already exists, one that won't 
take years of research and development or clinical trials. It has no 
undesirable side effects. It has no costs except commitment and 
determination. That medical miracle is daily physical activity.
    HHS studies and reports show that if adults would engage in only 30 
minutes of moderate physical activity a day, such as brisk walking, on 
5 or more days a week, it would decrease the risk of developing or 
dying from cardiovascular disease, type 2 diabetes, and some cancers--
such as colon cancer--as well as helping to prevent osteoporosis, 
arthritis, anxiety and depression.
    But children are not small adults--they need more activity to be 
healthy, at least 60 minutes on most days of the week. There must be a 
concerted effort by parents, schools and communities to make sure that 
children have the time and opportunity to gain the health benefits of 
moving at least 60 minutes throughout the day.
    Physical activity helps maintain a healthy weight. There's a 
concept called the ``energy equation.'' We need to expend as many 
calories by physical activity as we take in.
    As an athlete myself, I love to work out and play sports. But 
children don't have to play sports to be active. Just walking the dog, 
helping with household chores, playing tag in the yard--any activities 
that cause children to move the large muscles of their bodies--afford 
the health benefits of regular physical activity. Parents can help by 
monitoring TV and computer time and making family time active time so 
the whole family becomes healthier. If you are age 18 or older, it 
takes at least 30 minutes of physical activity a day to gain health 
benefits. And you don't have to do it all at once--you can accumulate 
30 minutes of activity throughout the day in 5, 10 or 15-minute 
increments. But remember, children and teens up to age 17 need at least 
60 minutes of movement on most days of the week.
    I applaud this committee for exploring the ways that public private 
partnerships can be effective in countering the growing obesity 
epidemic threatening the health of our children.
    I'm proud to say that the President's Council on Physical Fitness 
and Sports is on the cutting edge in that area. We are already working 
closely with partners in corporations and business, with non-profit 
organizations, with health care providers and insurers, educators, 
fitness and sports professionals, and other public agencies to 
encourage Americans to be physically active every day for health.
    Let me highlight some of our public-private partnerships:
    Each year, the General Mills Champions Program awards 50 grants of 
$10,000 each to community-based groups that implement innovative 
programs to help youth improve their nutrition and fitness behaviors. 
To celebrate National Physical Fitness and Sports Month in May 2003 and 
May 2004, General Mills sponsored the President's Challenge awards for 
all Minneapolis schools. In a 2-year period, over 20,000 students 
competed in the 6-week active lifestyle program and received 
Presidential recognition. General Mills is now pledging to sponsor up 
to 50,000 youth.
    The Coca Cola Company's ``Step With It'' program partnered with the 
President's Challenge program to encourage school children to be 
active. Coca Cola provided ``stepometers''--small pedometers that track 
the number of steps taken in a typical day to encourage participants to 
increase their daily walking and overall activity to maintain good 
health, while simultaneously fulfilling the requirements for the 
Presidential Active Lifestyle Awards (PALA) Program and awards. Coca 
Cola subsidizes the award and certificate for each child who completes 
the 6 week program.
    The Burger King Corporation sponsored President's Challenge awards 
during spring 2004. In this initiative, 206 schools nationwide received 
awards, and 66,000 students had an opportunity to receive presidential 
recognition for becoming and staying more fit and active. The 
sponsorship allowed parents, teachers and /or students to nominate 
their school for the awards as recognition of existing physical 
education programs.
    Another partner, Wheaties, provided equipment such as soccer balls, 
footballs, jump ropes, etc. to each school selected by the Council as a 
State Champion award winner, part of the President's Challenge program. 
Each year, the PCPFS honors 3 schools with the State Champion award. 
Based on enrollment size, the 3 schools within each State that have the 
highest Presidential Physical Fitness Award winners receive this 
special recognition. Wheaties encouraged each winning school to create 
and submit a poster depicting fit and active lifestyles. Wheaties 
selects a winning poster for use as a backdrop for the next year's 
program. A poster is sent to each State Champion school. In addition, 3 
schools based on enrollment size receive $5,000 grants for their 
physical education department. One million Wheaties' boxes promoted and 
encouraged all Americans to adopt and maintain an active lifestyle 
while earning presidential recognition for their efforts.
    The Kellogg Company is promoting physical activity for very young 
children (birth to age 5) to parents and caregivers through a 
publication co-sponsored with the President's Council on Physical 
Fitness and Sports, ``Kids in Action.'' The Kellogg Company is now 
partnering with the President's Council and the National Association of 
Sport and Physical Education (NASPE) to bring this important 
information to child care providers in day care centers as well as to 
parents and caregivers at home. The Kellogg Company produces, prints 
and distributes ``Kids in Action'' free of charge, and the Council 
assists in promoting physical activity for young children through 
cooperative media outreach and events and distribution of ``Kids in 
Action'' to the public.
    The American Association of Clinical Endocrinologists co-sponsored 
a publication, ``Rx: Take the President's Challenge: 
www.presidentschallenge.org'', a prescription for physicians to give to 
youth during school visits, when the doctors give a presentation about 
physical activity and sound nutrition and promote 
www.presidentschallenge.org to students, teachers, and parents.
    The Blue Cross Blue Shield Association's (BCBSA) ``Walking Works'' 
partnered with the President's Council on Physical Fitness and Sports 
to produce and print a walking guide designed to help Americans of all 
ages set their own benchmarks and achieve personal walking goals. 
Walking Works is a consumer education program developed to motivate 
BCBSA plan members and their families to integrate walking into every 
day, live healthier lives, and reduce the likelihood of costly health 
problems down the road.
    Members of Congress and their staffs were asked to walk for health 
by signing up for the Congressional Challenge, ``Walking Works'' 
program, in partnership with Blue Cross Blue Shield. During this 6-week 
challenge, staff members worked toward a Presidential Active Lifestyle 
Award (PALA) by logging on to www.presidentschallenge.org.
    Tomorrow (Wednesday, October 6, 2004) Secretary Tommy Thompson will 
join me and Kay Coles James, Director of the Office of Personnel 
Management, to issue a challenge to all Federal employees, the 
HealthierFeds Physical Activity Challenge. We are challenging the 
Federal agencies to compete with each other to earn Presidential awards 
and to be national role models for active lifestyles.
    Right now we have great leaders as role models--a President in the 
White House, a Secretary of Health and Human Services, and a U.S. 
Surgeon General who all advocate for prevention and healthy lifestyles. 
They walk the talk and practice what they preach. President Bush is in 
the top 1 percent of health statistics for men his age and in the top 3 
percent of men over age 30. Secretary Tommy Thompson lost 15 pounds. He 
walks around the HHS building and encourages employees to stop smoking. 
He wears a pedometer and exercises regularly. Surgeon General Dr. 
Richard Carmona speaks around the Nation to school children and others 
stressing the health benefits of physical activity, nutrition, 
prevention, and other healthy behaviors.
    I know that each and every Member of Congress wants to help our 
Nation become strong and healthy, ready to meet any challenge. You can 
be justly proud of the support given to research for new drugs and 
medical treatments for disease. But think of all the money we could 
save on health care if we begin to give equal emphasis to prevention 
now.
    The time is right for Congress to look at innovative ways to reduce 
staggering health care costs. Sometimes we need to shift our 
perspective to move in a new direction. Our entire health care system 
is organized around treating diseases after they occur, not preventing 
them before they occur. We need a paradigm shift that places prevention 
at the center of our health priorities. We need to focus not only on 
the people who are already sick with chronic disease but also on the 
generation that is growing up, the kids that are overweight at age 2 or 
3, and ill with type 2 diabetes and high blood pressure by the time 
they are 8 years old.
    As you consider what Congress and the Department of Health and 
Human Services can do to promote the health of the Nation, remember 
that 40 years ago, we were only beginning to hear the message about the 
dangers of tobacco use. It's taken that long to change the way people 
think about smoking.
    We can't afford to wait 40 years before people begin to take care 
of their health by stressing prevention. Today, we spend $117 billion 
annually on conditions related to obesity and $132 billion on type 2 
diabetes. That's about $250 billion a year. What if we had that much 
money to build parks, playgrounds, and playing fields? We might begin 
to reverse the alarming health trends we are seeing in our children. 
What if we could put some of that money into preventive medicine--for 
sidewalks, bike paths, playgrounds, sports facilities, after school 
programs, and youth recreation centers? If we want to see a bright and 
healthy future, we must change the way we think about health priorities 
and focus on prevention.
    The Federal Government needs to stimulate all levels of 
government--Federal, State, and local--to join with us and with 
partners in the private sector to attack the obesity epidemic and its 
attendant health problems. Please consider how the Executive and 
Legislative branches of the Federal Government can work together with 
corporations, organizations, educators, health care providers, States, 
communities, families and individuals to make healthy choices.
    We need our government to stand squarely behind initiatives and 
interventions to stress and encourage all Americans to be physically 
active every day, to eat a nutritious diet, to get preventive 
screenings, and to avoid risky behaviors. These are the four pillars of 
the President's HealthierU.S. initiative. We need to ask ourselves, 
``What help and incentives are needed to make people take these steps 
toward better health to improve their lives? How can we provide them?''
    It only takes small steps. It's important to spread that message. 
If we can encourage people to cut their calorie intake by 100 calories 
a day; to walk for 30 minutes 5 days a week, for example, we would 
begin to transform the health of the Nation. We must give our children 
the education and tools they need to make healthy nutritional choices. 
We must monitor their eating at home and at school. We must make time 
and opportunities for them to be active at 60 minutes on most days of 
the week. It's the small steps that count--small steps in the 
individual lives of many would reap dramatic benefits for the Nation as 
a whole, saving not millions but billions of dollars.
    I urge you never to underestimate the power you have as 
legislators. Working together, we have the ability to promote the 
health of our fellow citizens and our Nation. When you consider 
legislation on health, environment, transportation, and education--
remember that you are dealing with the lives and well being of the 
American people for years to come. We are talking about our own 
children and grandchildren. May the mark that we, as public servants, 
leave on those we touch be one that nurtures and enhances the health 
and overall well-being of this great Nation we serve.
    Thank you for inviting me to testify on this most important topic. 
At this time I would be happy to respond to any questions.

    Senator Frist. Thank you. I thank both of you. Very well 
said.
    Senator Reed?
    Senator Reed. Thank you, Mr. Chairman, and thank you, 
gentlemen, for excellent testimony.
    This is an extraordinary problem. We are on the leading 
edge of a real crisis. It is an epidemic now; it will be a 
crisis in a few years.
    As Senator Harkin pointed out, we stand on the verge of 
doing something that I think all of us thought would be 
impossible, which is reversing the increase in life span of the 
American public. That has been the measure of our public health 
progress over 200 years, each rapidly increasing the life span. 
And we are going to turn that around, perhaps.
    The other point is that it is all preventable, or most of 
it is preventable. And the huge costs--Mr. Swann pointed out 
the costs today--we are trying desperately to fund our health 
care system, and if these costs hit us, it might literally 
swamp the boat.
    So again, Mr. Chairman, I think this is a very, very timely 
and important hearing.
    There is one other point I would make which echoes what the 
witnesses said. This is not a medical problem as much as a 
cultural and lifestyle problem, because the dynamics are not 
just physiology--it is advertising, it is access to food, it is 
lack of physical activity--all the things that the witnesses 
have pointed out very well.
    Dr. Snider, in the Children's Health Act of 2000, we direct 
CDC to work with HRSA to develop and implement a program 
designed to educate health professionals about identifying at-
risk children for obesity and also educating and informing 
these children and families. What has CDC done to follow up on 
this initiative, and what is the status, if you could, of that 
program?
    Dr. Snider. CDC has a number of programs ongoing right now. 
I mentioned several of them that relate to working with States, 
working with schools, working directly with community 
organizations and media campaigns. But I appreciate the 
opportunity to fill in the gap on the other initiatives.
    We are working with professional societies to increase not 
only the awareness--because as you know, increasing awareness 
does not necessarily translate into taking action--but to 
increase their knowledge of what works. And this is where I 
think we are in a particularly transitional situation with 
regard to dealing with this epidemic. As the IOM said, we need 
to apply the best available science to this emerging problem. 
We cannot afford to wait.
    At the same time, we know that we need to have more 
definitive science and the best possible science. So one of the 
questions that we face in working with these professional 
associations is what works. And some of the colleagues who will 
follow on the next panel may have some comments to make, but I 
think that we can learn, as has been alluded to, what has 
worked with other counseling as it relates to tobacco 
cessation, as it relates to HIV and STD prevention and so 
forth. The key is what are the kinds of approaches that health 
professionals can take that will result in a change in 
behavior, not just inform the patient.
    I think we have some promising results in working with the 
professional societies, but we still have a way to go to try to 
find out what are really the best ways to effect changes in 
personal behavior.
    So we continue to work with professional societies on this 
problem to try to increase awareness, but I think there is 
still a challenge for developing better interventions.
    Senator Reed. Thank you.
    In your statement, Dr. Snider, you alluded to the numbers 
that CDC is collecting about nutrition and physical activity in 
high school and also the National Health and Nutrition 
Examination Survey. Can you give us some details? You said it 
is a pervasive problem, but are there geographic variations or 
economic status variations or anything that should be 
highlighted? You did mention the disparity between the minority 
obesity levels in children and others.
    Dr. Snider. I did not bring those tables with me. We 
certainly could provide them to the committee. We have 
published those. As I said, they are from the NHANES study, for 
example, and youth risk behavioral surveillance also provides 
information.
    I think the major take-away point, though, is that although 
there are variations around the country and among different 
groups--clearly, lower-income have a bigger problem with 
obesity or overweight than higher-income; Mexican American 
boys, African American girls--the main take-away message is 
that there is no group that is immune. I mean, it is pervasive 
throughout the population. So there are no target groups to go 
to. This is a problem of national scope.
    Senator Reed. Thank you.
    Mr. Swann, if I could----
    Senator Frist. Let's do one more question.
    Senator Reed. One more question. Thank you.
    Again, Mr. Swann, thank you for your excellent testimony. 
You are all over the country, and you are inspiring, not only 
through your career but your present activities, children to be 
physically active. What are the two or three most important 
things we can do?
    Dr. Snider. While we wait on the best science, I think we 
ought to just start being active. I will give you an example. I 
have five acres of land, and I needed to clear it. I sat around 
every morning drinking a cup of coffee, thinking, well, do I 
need a backhoe, do I need a chainsaw, how big a chainsaw--what 
equipment do I need? I did this for about a month. If I had 
just put on a pair of sneakers and a pair of bluejeans and a t-
shirt and gone out into the back yard, I would have cleared the 
five acres and not had to worry about it.
    So while we are in the process of thinking about what we 
should do, we should do very simple things. We should get out 
and walk as a family. We should have programs. There are 
programs on presidentschallenge.org, a website for the 
President's Council, that highlight partnerships that we have 
and links to other organizations to institute programs. If a 
school does not have a physical fitness program or a physical 
education teacher, any teacher in a school can implement the 
President's Challenge for the kids in that school.
    So I think if we simply get active and do something--it 
does not have to be high-tech--but get active doing a variety 
of things and understand that we are not trying to create 
another pro football player, it is not an effort to create an 
Olympian but an effort to create a healthier young person, 
adult, and senior citizen.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Frist. Thank you, Senator Reed.
    Senator Dodd?
    Senator Dodd. Thank you, Mr. Chairman.
    I am going to ask consent, Mr. Chairman--you and I and a 
number of others sent a letter back in March to GAO requesting 
that they do a study to examine Federal and State activities 
designed to prevent and treat obesity among children and 
adolescents. They are in the process of doing that study, but I 
thought it might be worthwhile for our colleagues to be aware 
that that process is under way.
    [Letter from Senators Dodd and Frist was not available at 
time of print.]
    Senator Dodd. I have just a couple of quick questions, if I 
can. Again, thank you both. It is good to see you again, and 
welcome back to the Congress.
    Dr. Snider, you mentioned the VERB campaign as part of 
CDC's efforts to prevent obesity in children ages 9 through 12. 
Yet this administration has zeroed out the funding for that 
program. I wonder if you might give us some other ideas about 
what CDC can do to make sure that children in this age group 
are going to receive a positive message about activity?
    Dr. Snider. Well, we were encouraged by the VERB campaign. 
We were encouraged by the results that I mentioned to you. We 
were encouraged after the release of the IOM report and the 
positive statements that the Secretary made about the VERB 
campaign.
    One of the things I did not emphasize----
    Senator Dodd. Was any reason given for why they zeroed out 
the program?
    Dr. Snider [continuing]. No, I do not think any particular 
reason has been given, and we do not have a fiscal year 2005 
budget yet, so I do not want to make any assumptions about----
    Senator Dodd. Let us use the forum here--would you like to 
see a little funding put in that program? Go ahead, Doctor, 
jump out there.
    [Laughter.]
    Dr. Snider. Is this a professional judgment?
    Senator Dodd. Of course, it is.
    Dr. Snider. Yes, I think we would like to see the program 
continued. From talking to my colleagues here, it is clear--
this is one of those areas where we have created a number of 
partnerships, which is one of the things that this hearing is 
about, and I did not have an opportunity to talk about all the 
partnerships we established with VIACOM, ABC, Time-Warner, 
sports league partnerships, NFL, National Hockey League, for 
example, manufacturers, Huffy Sports, Wilson's Sporting, and 
the YMCA.
    So these partnerships really were extremely important, and 
I think one of the things that we would like to do is continue 
on, see whether we can have a sustained effect on a larger 
population. The population that responded the most was girls. 
Can we modify the campaign a little bit working with the media 
companies so that we have an impact on boys as well? Can we 
have an impact on a larger range of age groups beyond the 
``'teens'' that VERB is focused on, the 9 to 13-year-olds?
    So I think there is a lot that could be done with mass 
media. We know that mass media works. We know that companies 
spend huge amounts of money advertising. Food companies spend 
huge amounts of money advertising food to children, and it must 
work; otherwise, they would not keep putting money into it. And 
we think this counter-advertising, if you will, toward 
promoting physical activity deserves an investment and a 
critical evaluation. We do not want you to put taxpayer money 
down the tubes, but given the results we have gotten, we think 
it deserves a chance.
    Senator Dodd. Let me ask you this. We know as a result of 
studies that have been done, and certainly the guidelines that 
CDC has recommended, that daily physical exercise is a must. 
Lynn Swann talked about it. Yet we know that fewer than 6 
percent of senior high schools require any kind of daily 
physical exercise.
    We are here trying to determine policy issues. Senator 
Harkin mentioned, I think appropriately so, the ``No Child Left 
Behind Act,'' the education of all children.
    What policy recommendations would the CDC make regarding 
the Federal Government's commitment to elementary and secondary 
education to require some greater degree of participation in 
physical exercise than we are presently seeing?
    Dr. Snider. Well, CDC's position is that--first of all, as 
you know, the school policies around physical activity are set 
at the local level--but our recommendations to the States and 
the communities are----
    Senator Dodd. With Title I money--we provide a lot of money 
to schools.
    Dr. Snider [continuing]. Our recommendations are that they 
have physical education programs in all the schools.
    Senator Dodd. But you realize, of course, that they are 
strapped. I mean, these schools are----
    Dr. Snider. They are strapped, and they are under a lot of 
pressure to deliver academic performance. I think this is one 
of those areas where we need to get out there and roll up our 
sleeves with the educators and figure out how we can help them 
achieve all of their other objectives related to academic 
achievement, but still keep our kids physically active.
    Senator Dodd [continuing]. Good. Do you have any 
disagreement with Lynn Swann's numbers regarding the cost of 
obesity today--the statistics he cited about the----
    Dr. Snider. The $117 billion, for example?
    Senator Dodd [continuing]. And the $250 billion. Are those 
pretty accurate numbers, do you think?
    Dr. Snider. Yes, sir.
    Senator Dodd. So what we are talking about here--I mean, 
what we contribute to elementary and secondary education is a 
fraction of that cost, and the issue is whether or not we are 
going to provide some real resources back, particularly--as we 
know and as you point out, poorer kids have a tendency to 
suffer from this problem to a greater extent than more affluent 
children. That is a fact.
    Dr. Snider. Yes; for a whole variety of reasons.
    Senator Dodd. So that obviously, poor school districts that 
are struggling to provide science teachers and math teachers 
and the like are also strapped when it comes to adding programs 
involving fields of education.
    What we are looking for is not only to get some 
recommendations but some meat behind this, some real resources 
that would make it possible for these poor districts to be able 
to include as part of their daily curriculum physical exercise, 
knowing the cost and knowing the implications of it.
    Dr. Snider. There is no question but that there are 
economic factors that are driving the inability of certain 
schools to offer the kind of physical education programs that 
many of us used to get routinely when we were growing up.
    Senator Dodd. Let me ask one last question if I can. The 
IOM and the CDC both talked about the importance of sending 
clear messages to kids. It would seem that partnerships with 
Coca Cola and Burger King would send the wrong message to kids 
in some ways. Maybe you want to address this. I am not trying 
to pick on two particular corporations, but as Senator Harkin 
has pointed out, the quantity of sugar in these products--these 
are not exactly the kinds of foods that you would be 
recommending that children consume with any great consistency, 
and partnerships with them create, it would seem to me, a 
contradictory message.
    Mr. Swann. Well, it does not create a contradictory 
message. I think the message is that if children are going to 
eat something that has a higher sugar content, they have got to 
offset it by a certain amount of physical activity. For 
instance, we are not recommending that you eat 15 teaspoons of 
sugar a day, but if you have the intake of something that is 
3,000 calories, do you have a certain amount of physical 
activity to balance that out, and is that a part of your 
regular day.
    You also have to have as part of that balance an 
educational program so that kids understand what they are 
eating, so they are not taking in too much or a high quantity 
of things that are not good for them. So you should not have a 
20-ounce Coke every day, or two 20-ounce Cokes out of the 
machine. I think the obligation and the responsibility of the 
food companies is to deliver a message of education that says 
this is what a nutritious diet is all about, this is what a 
balanced meal is all about.
    Senator Dodd. Have you ever seen Coca Cola or Burger King--
we will use those two; there are others--have you ever seen 
them recommend only drink one Coke a day, or one Coke every 2 
days?
    Dr. Snider. Well, I think certainly, Senator, what they 
recommend in terms of physical activity is to balance what they 
intake with physical activity and look at a proper balance in 
terms of a diet. I cannot dictate to them what they do in terms 
of their advertising and things of that nature, but our mandate 
is to ask kids to be more physically active. Our mandate is to 
have kids have a better understanding and knowledge of what is 
nutritious and healthier for them.
    We create partnerships with companies who are willing to 
deliver that particular message. I do not think it is any 
different in this particular perspective from the mandates made 
on cigarette or tobacco companies to say you must educate 
people. Certainly people would say, well, why are you asking 
tobacco companies to educate people about the harms and the 
negative factors of cigarette smoking. They have done so 
because they have been forced to do so. Food companies are 
taking a proactive position in terms of trying to deliver a 
more positive message about balanced nutrition and physical 
activity.
    Senator Dodd. All right. I will stop there. My colleagues 
probably have some additional questions. I just wanted to raise 
with you the possibility of why we do not encourage in the 
insurance industry--I think your point about adults is 
important and setting examples--but why we do not reward adults 
through reduced premium costs, for instance, on health care for 
those who do engage in physical activity, or give businesses 
breaks in terms of premium costs when they have physical 
fitness programs, allow time for it.
    Rewarding adult behavior by reducing the cost of health 
insurance given the greater likelihood they are not going to 
need it seems to me to be one of the worthwhile ways to 
promote--nothing will get people's attention more than reducing 
the cost of a health care premium.
    Mr. Swann. Senator Dodd, what you have just said are 
recommendations and things that I have brought up in Council 
meetings on a number of occasions in terms of trying to 
approach the insurance industry with those kinds of things. I 
am not allowed to approach the industry to make those kinds of 
suggestions.
    If I were allowed to approach----
    Senator Dodd. What do you mean, you are not allowed?
    Mr. Swann [continuing]. I am not allowed as chairman of the 
President's Council to go to the companies and make these kinds 
of suggestions. I have to sit and wait for them to come to me. 
Those are the rules of government, if you will, for our 
particular agency, Senator.
    For instance, if I could, I would suggest to all the 
companies that manufacture electronic games at least a 20 or 30 
second spot that you cannot forward past, you cannot erase, 
that would ask each child every time they turn on that game: 
Have you gotten your 60 minutes of physical activity today? 
There would be a suggestion every time they turn that game on--
have you exercised today? What have you done?
    But again, in my position, I am not allowed as chairman of 
the President's Council to walk up to those companies, to knock 
on their door and say, ``I have an idea for you. Can we do 
this?''
    Senator Dodd. That is a subject for another hearing, I 
guess, to find out why that exists.
    Thank you.
    Senator Alexander [presiding]. I believe Senator Harkin was 
next.
    Dr. Snider. Senator, if I could just add, though, you gave 
us some money this past year----
    Senator Dodd. Not me, personally.
    Dr. Snider [continuing]. Which we have invested in health 
promotion in the workplace and also in establishing two centers 
for excellence in health promotion economics. It is our hope 
that through those research projects, we will generate the kind 
of data that will convince companies and insurance providers 
that it is cost-effective to invest in these kinds of things.
    Senator Alexander. Senator Harkin?
    Senator Harkin. Thank you, Mr. Chairman.
    Again, I want to thank you both for your leadership and for 
being here today.
    Is it true, Mr. Swann, that you were actually in dance 
class when you were in seventh grade?
    Mr. Swann. I took about 14 years of dance class, that is 
correct.
    Senator Harkin. Well, I daresay that if you were in school 
today, that dance class would not be there.
    Mr. Swann. Those classes were not in school, sir. I always 
took them after school.
    Senator Harkin. Oh. I thought it was in school.
    Mr. Swann. No.
    Senator Harkin. It was after school. Well, they would not 
be in school because they are being cut out because of time 
constraints and money constraints and things like that.
    I was also remiss in my earlier statement--I should have 
mentioned the fact that our Secretary of Health and Human 
Services, Secretary Tommy Thompson, has been one of the great 
leaders in this area of physical fitness. He has done a superb 
job, and I just want to publicly acknowledge one more time his 
great leadership in this whole area of physical fitness and 
well-being, in a lot of different areas.
    The STEPS program is a great program. Now, again, it is one 
of those things that is starting small, but it needs to be 
expanded out. Secretary Thompson has done a great job in 
promoting that.
    One of the other things--and I think I talked with you 
about this, Mr. Leader, at one time--that Secretary Thompson 
has placed signs by all the elevators at HHS--I saw them down 
there--that if you just go a little bit to the right, there are 
stairs there, and if you climb the stairs, you burn--I have 
forgotten how many calories it was, but I thought that was 
pretty darned neat.
    So I have taken it upon myself now to start climbing stairs 
instead of taking the elevator, and it is amazing--you really 
do not lose that much time, but what it does for you, just 
climbing stairs every day, is amazing.
    Mr. Swann, when you go out to see Union Pacific, would you 
stop in DesMoines and see Townsend Engineering and also go and 
see Grundy Center High School in Iowa? The reason I say that to 
you is because I take a little exception with your focus on 
sports. Now, I appreciate sports, but a lot of kids do not play 
sports, whether A, B, C, D--they just do not.
    But what Grundy Center High School has done with the Carol 
White Physical Education Program, the PEP program--and by the 
way, Senator Stevens has been very supportive of getting more 
money for the Carol White PEP program--what they do in the high 
school is every kid in that high school has a physical fitness 
routine. They do not play sports, but they have something they 
do every week. They take every kid in the high school when they 
first come to high school, they get their body mass index, they 
set them up on a routine, it is all computerized, and they 
track them as they go through high school--every kid, even kids 
with disabilities, gets exercise. They do not play sports, but 
they have an exercise routine for every kid in that school.
    So I do not want us just to focus on sports. There are 
other things you can do in elementary school, middle school and 
high school. And by the way, now people come from around the 
United States to Grundy Center High School to see what they did 
there and how they can do it in their own schools. I know a lot 
of middle schools are doing the same thing.
    So I hope you will think about the broader context and not 
just sports.
    Senator Alexander. Yes, Mr. Swann.
    Mr. Swann. I would like to say that I understand that 
perfectly. Normally, when I speak to a group about physical 
activity, I speak to them for about 40 minutes or longer, and 
that is one of the areas I cover.
    The President's Council on Physical Fitness and Sports has 
been very proactive and I think is on the cutting edge in terms 
of what you are just now discussing. At our website, for 
instance--which is free, anybody can use it, any company can 
use it, any group can use it, and sign on--it will track you 
for the rest of your life and the amount of physical activity 
you are doing if you just input the information in there. And 
on that physical activity, we have over 100 things listed as 
physical activity. Yes, there are the traditional things in 
terms of sports, but we even have dart throwing, if you will; 
we have housework, we have gardening, walking. It is all the 
things that you are talking about. Not every child plays a 
sport.
    Indeed, most of us who have played a sport in high school, 
by the time we graduate from college and get a job and go on to 
some professional career, if it does not involve sports, we are 
no longer on the team. So part of the education has to be 
making the priority to get some other kind of physical 
activity.
    So I agree with you 100 percent that we have to encourage 
them to do other things than just be on the team.
    Senator Harkin. Yes. If they do it all the way through 
school, by the time they graduate, it has become a part of 
their lifestyle--keeping physically fit, tracking their body 
mass index, tracking their cholesterol and blood pressure.
    Mr. Swann. Correct.
    Senator Harkin. It becomes a part of their lifestyle--but 
you have got to start with these kids early.
    Mr. Chairman, I just want to say one other thing. I am all 
for personal responsibility. I am all for it. But again, I will 
take a little exception with you--you said it does not send 
mixed signals when we put vending machines in schools and 
things like that.
    What level of personal responsibility are we asking in a 
child of 8 years old or 10 years old or 12 years old when they 
are bombarded at the earliest possible time in their lives with 
things like this--the Oreo Cookie Counting book; you learn to 
count by counting Oreo cookies. And you have--well, actually 
this is not bad; Cheerios is really pretty good, as long as 
they are not sugared-up--but you have the Fruit Loops Counting 
Book, the Goldfish Counting Book, the M & M's Counting Board 
Book. These are for kids who are learning how to count. It is 
embedded in their brains that these are good for them.
    Then, the other thing that we see happening with kids is 
that they are taking all the kids' cartoon characters and 
putting them on all this junk food. So you have SpongeBob 
SquarePants. Kids love SpongeBob. He is now on Cheese Nips with 
Elmo and Cookie Monster and on and on and on--all these 
characters are on every--you do not see these characters on 
fruits and vegetables. Why don't they have SpongeBob 
SquarePants on spinach or broccoli--how about apples and pears 
and oranges? No. It is on all this stuff.
    I know this is not what you are saying, but almost what is 
coming through is: Kids, you can eat all the junk food you 
want; all you have to do is work it off.
    I am sorry. I know that is probably not what you are 
saying----
    Mr. Swann. It is definitely not what I am saying.
    Senator Harkin [continuing]. I know it is not. But I am 
sorry to have that interpretation. It is not enough just to 
work it off. I am all for personal responsibility. I am all for 
parents setting a good example. But this is an epidemic, folks. 
This is not something where we can just sit around and say 
``personal responsibility.''
    I am all for personal responsibility, but when you have an 
epidemic, there is a governmental responsibility for us to do 
something, to step in and start efforts at stopping it. Yes, 
personal responsibility, family responsibility, community 
responsibility, but there has to be some responsibility to get 
to these kids early on in life to get them started on a healthy 
program. And this kind of stuff simply does not do it. You are 
getting these kids early on in life, and they are getting these 
mixed messages about what is good for them and what is not good 
for them.
    That is why I think this has got to be a big, comprehensive 
thing; we just cannot do it one at a time.
    I thank you. You have indulged me long enough, and I 
appreciate it, Mr. Leader.
    Senator Frist. Thank you.
    Mr. Swann, could you just comment briefly--and then we have 
another panel to continue the whole discussion, so I think we 
will move on--but why don't you make a final closing comment, 
because I know that is not what you said, but I think it is 
important to respond. And in effect, we are all agreeing. This 
thing is really big. It is an epidemic. It is increasing. And 
having the public and private come together in really 
innovative ways, we are going to be able to reverse this.
    What I would like to do is have Mr. Swann close and then 
bring up the third panel, and then, Senator Wyden, I know you 
have been observing, but if you want to make a comment before 
the third panel, and then we will go right to them.
    Senator Wyden. I do have a question whenever it would be 
appropriate, Mr. Chairman.
    Senator Frist. OK. Let me just let Mr. Swann comment 
quickly, and then I will turn to Senator Wyden.
    Mr. Swann. Mr. Chairman, thank you, and Senator Alexander, 
it is good to see you again, sir.
    I think we are all members of the same choir. We understand 
that obesity is a growing epidemic and that we have to turn 
this around. It is not going to be an overnight process. It did 
not arrive here as an overnight process, and it will not go 
away as an overnight process.
    We need to attack this in 360 degrees, from all sides, by 
approaching children, adults, and senior citizens, educating 
them about the value of physical activity, about nutrition, 
about making physical activity a priority in all of our lives. 
It is not an elective. It is not something we can just take for 
granted. If we need to, we will schedule it, but we need to get 
physical activity, we need to have proper nutrition in a 
balanced way in our lives--and we need to do this in all 
aspects. We need to lead by example. We need to reach our 
schools to have them teach a better message. We need to reach 
out to the private sector, to industry, to community groups, to 
create safe walking and biking paths to schools, to create 
after-school programs and places where kids can go and feel 
safe, where their parents will believe they are safe, where 
they can get physical activity. And we need to be able to do it 
in the workplace.
    We need to be able to make sure that our children 
understand and are knowledgeable about how they can live in a 
healthy manner so they can make the right decisions.
    We need to teach our kids responsibility because all of our 
children--all of our children--all of us--made the most 
important decisions of our lives when our parents were not 
around. When our parents were not around, and we were 
approached by a variety of people to do things that we knew 
were wrong, we had to have the responsibility to make that 
decision. It is paramount that we teach that responsibility to 
our children at an early age so that they can make the right 
decisions for themselves for a lifetime.
    Thank you.
    Senator Frist. Thank you, Mr. Swann.
    Let me turn to Senator Alexander and then Senator Wyden, 
and then I really do want to get to our third panel.
    Senator Alexander?
    Senator Alexander. I have 60 seconds at this point, and 
then I will save my remarks for the third panel.
    One, I simply wanted to especially welcome Lynn Swann here. 
Listening to him talk about parents and grandparents, I know 
where that comes from. He has roots in Blount County, TN where 
I am from, and my parents and his grandparents were very good 
friends. So I can understand what he just said very, very well, 
and I admire his work.
    The second thing--and maybe this was discussed earlier, or 
maybe someone will discuss it later--one of the major reasons 
for physical activity in American public schools is that our 
children come from all over the world, and the public schools 
were created in the last century. Albert Shanker, the former 
head of the American Federation of Teachers, use to say that we 
should teach the three R's and teach children what it means to 
be an American, and we should hope they would go home and teach 
their parents.
    Physical activity, recess, and playing together, were 
always considered to be good ways to teach children who came 
from many different countries--they were not all French, they 
were not all Japanese, they were not all from Africa, they were 
not all from Scotland; they were people of many different 
countries and backgrounds--how to live together by playing 
together.
    Now, that is a little different than the obesity issue, but 
it was an important reason why physical activity was a part of 
the early public schools, and with so many new Americans today, 
it would be one more arrow in your quiver, one more reason why 
physical activity ought to be a regular part of a public school 
activity.
    Thank you.
    Senator Frist. Thank you.
    Senator Wyden?
    Senator Wyden. I will be under 60 seconds.
    Dr. Snider, as we know, some of the hungriest kids are some 
of the most obese, and that is almost counterintuitive, because 
you say to yourself, well, if they are hungry, they are going 
to be thin. But I think what we know is that if they are 
hungry, they are likely to be poor, and then they are 
particularly going to look at cheap food and whatever is 
convenient.
    How do we tackle those two problems together, and what are 
the latest recommendations with respect to it? Of particular 
importance--the majority leader knows this is what drove me to 
it--my State is in effect the second hungriest in the country, 
and we also have the growing problem of obesity, so in our 
State, the two of them are linked.
    Dr. Snider. I think you are absolutely right. Poor 
families, poor children, tend to make poor food choices because 
the least expensive foods contain a lot of sugar, a lot of fat, 
and therefore lead to poor nutrition and in many cases, 
overweight and obesity.
    There have been some programs that have been delivered in a 
variety of communities where low-income children have been 
brought to the school and of course given a comprehensive 
education about nutrition and physical activity and so forth, 
but actually provided appropriate nutrition at the school for a 
nutritious breakfast, for example, a nutritious lunch.
    I think there are ways to begin to address this problem. I 
think on a larger macroeconomic scale, though, we are going to 
have to figure out from an economic perspective how we can make 
more nutritious food more economically attractive and less 
nutritious food less economically attractive. It boils down 
basically to that, and how to make structural changes to 
achieve that is something that I think we all have to work 
together to figure out.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Frist. Thank you.
    I thank both of you. Your articulate way of describing 
where we are today and where we need to go is very, very 
helpful.
    Thank you.
    Senator Frist. With that, I would like to welcome the third 
panel and ask them to come forward. I will introduce them as 
they come forward, and then we will proceed down the line with 
their presentations.
    Today's third panel will focus on public-private 
partnerships that are currently working to reduce obesity in 
America's children.
    First, we have William Potts-Datema, who serves as director 
of Partnerships for Children's Health at the Harvard School of 
Public Health in Boston. He is also chair of Action for Healthy 
Kids, a nationwide initiative dedicated to improving the health 
and educational performance of children through better 
nutrition and physical activity in schools.
    Ross Brownson is a professor of community health and 
epidemiology at Saint Louis University School of Public Health. 
Dr. Brownson is a member of the committee on Prevention of 
Obesity in Children and Youth, which authored the recent 
Institute of Medicine Report, ``Preventing Childhood Obesity: 
Health in the Balance.''
    Gary DeStefano is our final panelist, and he is president 
of USA Operations for the Nike Corporation. Gary is an avid 
athlete and supporter of Nike's anti-obesity partnerships, 
including the NikeGO program and PE2GO program.
    I want to welcome all three of you, and I think we will 
proceed in that order, beginning with Mr. Potts-Datema.

   STATEMENTS OF WILLIAM POTTS-DATEMA, CHAIRMAN, ACTION FOR 
   HEALTHY KIDS, AND DIRECTOR OF PARTNERSHIPS FOR CHILDREN'S 
  HEALTH, HARVARD SCHOOL OF PUBLIC HEALTH, BOSTON MA; ROSS C. 
  BROWNSON, PROFESSOR OF EPIDEMIOLOGY, SAINT LOUIS UNIVERSITY 
 SCHOOL OF PUBLIC HEALTH, ST. LOUIS, MO, AND MEMBER, COMMITTEE 
 ON THE PREVENTION OF OBESITY IN CHILDREN AND YOUTH, INSTITUTE 
OF MEDICINE; AND GARY M. DESTEFANO, PRESIDENT, USA OPERATIONS, 
                NIKE CORPORATION, BEAVERTON, OR

    Mr. Potts-Datema. Thank you, Mr. Chairman and members of 
the committee. Thank you for the opportunity to testify before 
you today.
    I am William Potts-Datema. I am director of Partnerships 
for Children's Health at the Harvard School of Public Health, 
but I am here today in my role as chairman of Action for 
Healthy Kids, the only combined national grassroots effort to 
address the crisis of childhood overweight in America by 
focusing on changes in the school environment in particular.
    The landmark 2001 Surgeon General's Report on Overweight 
and Obesity detailed the devastating and growing societal 
consequences of the epidemic in our country. The report 
included a ``Call to Action'' which identified schools as a 
critical environment that needed immediate attention.
    Schools are in a unique position to help prevent and 
decrease childhood overweight. In schools, children spend a 
significant portion of their waking hours--at least 1,250 hours 
each year. In schools, children learn significant and lasting 
lessons about nutrition and physical activity both from the 
curriculum and from the examples of their teachers and peers.
    Schools provide all children equal access to information 
about nutrition and physical activity regardless of their 
family's background, socioeconomic status, or prior knowledge 
of these issues. The influence of schools cannot be overstated.
    In response to the Surgeon General's ``Call to Action'' the 
Nation's leading health, nutrition, education and physical 
activity organizations convened to determine steps that could 
be taken within the school environment to address this crisis. 
These leaders, representing more than 35 national organizations 
and government agencies, agreed that meaningful change would 
require a public-private partnership of the broadest scope, and 
they adopted the goals outlined in the ``Call to Action'' as 
the focal point of their work.
    The initiative began with the Healthy Schools Summit held 
here in Washington, D.C. 2 years ago on October 7, 2002. 
Chaired by former Surgeon General David Satcher with Mrs. Laura 
Bush serving as honorary chair and with the participation of a 
number of other esteemed individuals, including the 
distinguished majority leader, the summit brought together a 
standing-room-only crowd of more than 500 dedicated individuals 
from every State in our Nation.
    These participants were clear and united in their call for 
a multidisciplinary public-private initiative with support and 
guidance at the national level but with the real action taking 
place at the grassroots level within our schools.
    So Action for Healthy Kids was born. In less than 2 years' 
time, we have created an infrastructure that combines national 
support with guidance and expertise from more than 40 national 
organizations and government agencies. The 51 Action for Health 
Kids State Teams have become centers for creative action within 
their States, building momentum toward positive changes within 
the school environment.
    Each Action for Health Kids State Team is a freestanding, 
diverse collaboration of volunteers from the private, public, 
and nonprofit sectors. All State Teams have chosen priorities 
developed from the ``Call to Action'' based on their own 
evaluations of State needs and factoring the current status of 
local school environments. From there, State Teams have 
developed goals and action plans to address their specific 
priorities.
    Using assistance from the national office, these teams 
regularly share timely information, success stories, and best 
practices across the network. As we speak, State Teams are 
working in every State to improve children's eating habits, 
increase their physical activity, and educate them about the 
supportive role of sound nutrition and physical activity in 
academic achievement.
    I might just mention a couple of State examples. For 
example, in Tennessee, the Action for Health Kids State Team is 
a coalition that includes members from higher education, 
government, health professionals, educators, and industry 
leaders. Middle Tennessee State University donates meeting 
space, office supplies, and students to help the team 
accomplish its goals. The team is working to increase healthy 
vending practices throughout all schools. And recently, the 
Tennessee Department of Agriculture awarded Agricultural 
Development Fund Grant to the team to administer a milk vending 
machine grant program in Tennessee public schools.
    We have other State examples, and I will not go into those 
right now, but they are included within my testimony.
    I might just mention about Massachusetts, since I work as 
well on the Massachusetts State Team, that we have worked in 
concert with the Massachusetts Department of Education and 
School Food Service Association to develop and disseminate 
nutrition guidelines for a la carte foods and beverages to all 
1,893 schools in Massachusetts, and that has the potential to 
positively impact over 1 million students.
    There are of course many more examples of how Action for 
Healthy Kids partnerships are taking action to help improve 
nutrition and physical activity, and we encourage you to visit 
our website at www.ActionForHealthyKids.org. We also passed 
around a copy of the report of Action for Healthy Kids.
    Nationally, we have in-kind support from more than 40 
organizations and government agencies. We receive funding from 
diverse sources including the National Football League, the 
National Dairy Council, and the Robert Wood Johnson Foundation, 
among others, and we estimate that the initiative receives 
approximately $1.5 million annually in the form of in-kind 
services and contributions from our more than 4,000 volunteers.
    In closing, I speak for myself, my board of directors, and 
for the 40-plus partner steering committee organizations, and 
for the 51 State Teams in applauding this committee's attention 
to this important and timely issue.
    We place the childhood overweight epidemic at the top of 
our Nation's health care agenda, and beyond that, we believe it 
is clear that healthy children perform better in school. We are 
confident that, as Dr. David Satcher said at the Healthy 
Schools Summit, ``There is no limit to what we can do if we 
work together.''
    We look forward to working closely with you and others to 
continue to develop and nurture alliances and partnerships that 
will make a real difference for the health of our Nation's 
youth.
    Thank you.
    Senator Frist. Thank you very much, Mr. Potts-Datema.
    [The prepared statement of Mr. Potts-Datema follows:]

               Prepared Statement of William Potts-Datema

    Mr. Chairman and Members of the Committee, Good morning. I am 
William Potts-Datema, director of Partnerships for Children's Health at 
the Harvard School of Public Health. I am here today in my role as 
chairman of Action for Healthy Kids, the only combined national-
grassroots effort to address the crisis of childhood overweight in 
America by focusing on changes in the school environment.
    The landmark 2001 Surgeon General's report on overweight and 
obesity detailed the devastating and growing societal consequences of 
the epidemic in our country. The report included a ``Call to Action'' 
which identified schools as a critical environment that needed 
immediate attention.
    Schools are in a unique position to help prevent and decrease 
childhood overweight. In schools, children spend a significant portion 
of their waking hours, at least 1,250 hours each year. In schools, 
children learn significant and lasting lessons about nutrition and 
physical activity, both from the curriculum and from the examples of 
their teachers and peers. Schools provide all children equal access to 
information about nutrition and physical activity--regardless of their 
family's background, socio-economic status or prior knowledge of these 
issues. The influence of schools cannot be overstated.
    In response to the Surgeon General's ``Call to Action,'' the 
Nation's leading health, nutrition, education and physical activity 
organizations convened to determine steps that could be taken within 
the school environment to address this crisis. These leaders, 
representing more than 35 national organizations and government 
agencies, agreed that meaningful change would require a public-private 
partnership of the broadest scope, and they adopted the goals outlined 
in the ``Call to Action'' as the focal point of their work. The 
initiative began with the Healthy Schools Summit, held here in 
Washington, D.C. 2 years ago on October 7, 2002. Chaired by Former 
Surgeon General David Satcher with Mrs. Laura Bush serving as Honorary 
Chair, and with the participation of a number of other esteemed 
individuals--including the distinguished majority leader--the Summit 
brought together a standing-room-only crowd of more than 500 dedicated 
individuals from every State in our union. These participants were 
clear and united in their call for a multi-disciplinary public-private 
initiative with support and guidance at the national level, but with 
the ``real'' action taking place at the grassroots level within our 
schools.
    And so, Action for Healthy Kids was born. In less than 2 years' 
time, we have created an infrastructure that combines national support 
with guidance and expertise from more than 40 national organizations 
and government agencies. The 51 AFHK State Teams have become centers 
for creative action within their States, building momentum towards 
positive changes within the school environment. Each AFHK State Team is 
a free-standing, diverse collaboration of volunteers from the private, 
public and non-profit sectors. All State Teams have chosen priorities 
developed from the ``Call to Action'' based on their evaluations of 
State needs and factoring the current status of local school 
environments. From there, State Teams have developed goals and action 
plans to address their specific priorities. Using systems coordinated 
through our national office, these teams regularly share timely 
information, success stories and best practices across the network. As 
we speak, State Teams are working in every State to improve children's 
eating habits, increase their physical activity, and educate them about 
the supportive role of sound nutrition and physical activity in 
academic achievement.
    For example, Tennessee AFHK State Team is a coalition that includes 
members from higher education, government, health professionals, 
educators and industry leaders. Middle Tennessee State University 
donates meeting space, office supplies, and students to help the team 
accomplish its goals. The team is working to increase healthy vending 
practices throughout in all schools. Recently, the Tennessee Department 
of Agriculture awarded an Agricultural Development Fund Grant to the 
team to administer a milk vending machine grant program in Tennessee 
public schools.
    The NH AFHK team has been working with NH Department of Education 
to develop ``best practices'' recommendations for physical education 
and physical activity, which will then be disseminated to all schools. 
While the MA AFHK team collaborated with the MA Department of Education 
and MA School Food Service Association to develop and disseminate 
nutrition guidelines for a la carte foods and beverages to all 1,893 MA 
school districts, having the potential to positively impact nearly 
1,000,000 students.
    Another example comes from Texas, where AFHK has provided training 
for 22 regional health specialists that are working to establish 
Coordinated School Health councils throughout the State in response to 
a legislative mandate. These specialists are helping to assess school 
districts' needs, coordinate professional development, locate available 
resources and promote collaboration between schools, health agencies, 
and the community. Improving nutrition and physical activity are core 
activities for the Coordinated School Health councils.
    There are, of course, many more examples of how State AFHK 
partnerships are taking action to help improve nutrition and physical 
activity and we encourage you to visit our web site at 
www.ActionForHealthyKids.org. Nationally, we have in-kind support from 
more than 40 organizations and government agencies. We receive funding 
from diverse sources, including the National Football League, the 
National Dairy Council and the Robert Wood Johnson Foundation, and we 
estimate that the initiative receives approximately $1.5 million 
annually in the form of in-kind services and contributions from our 
4,000-plus volunteers.
    I speak for myself, for my Board of Directors, for the 40-plus 
Partner Steering Committee organizations, and for the 51 State teams in 
applauding this Committee's attention to this important and timely 
issue. We place the childhood overweight epidemic at the top of our 
Nation's healthcare agenda, and, beyond that, we believe it is clear 
that healthy children perform better in school. We are confident that, 
as Dr. David Satcher said at the Healthy Schools Summit, ``There is no 
limit to what we can do if we work together.'' We look forward to 
working closely with you and others to continue to develop and nurture 
alliances and partnerships that make a real difference in the health of 
our Nation's youth.
    Thank you.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Frist. Mr. Brownson, thank you for being with us.
    Mr. Brownson. Good morning, Mr. Chairman and members of the 
committee.
    My name is Ross Brownson. I am a professor of epidemiology 
and department chair at Saint Louis University School of Public 
Health. I also recently served as a member of the Committee on 
the Prevention of Obesity in Children and Youth of the 
Institute of Medicine.
    I am here today to talk about our recent IOM report, 
``Preventing Childhood Obesity: Health in the Balance,'' which 
was undertaken at the request of Congress and was released last 
Thursday, September 30. Our report provides the first 
comprehensive, evidence-based action plan for tackling the 
epidemic of childhood obesity on multiple fronts.
    We call for immediate action given the alarming rate at 
which the incidence of childhood obesity is growing in America. 
You have already heard those rates, and we know that these 
increases will hold a significant toll for our children's 
health in the future.
    Our Nation has spent many billions of dollars to make 
incredible health advances related to genetics and other 
biomedical discoveries, yet these advances could be offset by 
the burden of illness and premature death caused by too many 
young people eating too much and moving too little over their 
lifetimes.
    Reducing rates of childhood obesity requires that children 
achieve and maintain a healthy energy balance--that is, the 
balance between amount of calories consumed and the amount 
expended through physical activity.
    The Federal Government must provide the leadership that is 
needed to make obesity prevention a national public health 
priority, and therefore, our report calls for the establishment 
of a high-level Federal task force to ensure coordinated 
budgets, policies, and programs.
    The report also recommends pilot programs to explore 
changes in Federal food assistance programs that could promote 
healthy eating. We also urge an increase in resources devoted 
to obesity prevention programs, surveillance and research, such 
as those overseen now by the CDC and the NIH.
    Naturally, we call on parents and families to encourage 
their children to engage in regular physical activity, to 
provide them with healthy foods, and to serve as good role 
models. We recommend that parents limit television and other 
recreational screen time to no more than 2 hours per day.
    We call on schools, from preschool through high school, to 
implement nutritional standards set at the national level for 
all foods and beverages served on school grounds, including 
those dispensed by vending machines. Schools also should expand 
opportunities for all students to engage in at least 30 minutes 
of moderate to vigorous physical activity; that contributes to 
the total of 60 minutes per day mentioned earlier.
    The report also calls on the food, beverage and 
entertainment industries to develop innovations related to 
healthier food and beverage product and packaging. We need 
these industries to provide clear and consistent media messages 
promoting energy balance.
    Further, the report calls for the relevant industries to 
voluntarily develop and implement guidelines for advertising 
and marketing directed at children. Congress should give the 
Federal Trade Commission the authority to monitor compliance 
with these guidelines and to establish external review boards 
to prohibit ads that fail to comply.
    Community organizations and local and State governments 
should expand programs and need to engage youth-centered 
organizations, faith-based groups, and many other community 
partners. Local action must focus on improving the so-called 
built environment--bike paths, sidewalks, and playgrounds--
through capital investment and local zoning. For example, we 
must find ways for getting our children walking and biking to 
school again.
    Health care professionals also have a vital role in 
preventing childhood obesity. They have the access and 
influence to discuss a child's weight status with parents, and 
can make credible recommendations on dietary intake and 
physical activity. We need to better train health professionals 
to routinely assess body mass and to counsel patients and 
families on weight. Specific attention must be given to 
children who are at especially high risk for becoming obese, 
especially ethnic minority populations and families of lower 
socioeconomic status.
    As our Nation focuses on obesity and begins to address the 
societal influences that contribute to excess weight, poor food 
choices, and physical inactivity, many different groups, 
industries, and organizations will need to make difficult 
choices. Our report is calling for fundamental changes in our 
society in how we view childhood obesity. No single sector 
acting alone can solve this problem.
    Because the epidemic has taken years, literally decades, to 
develop, it will require a sustained commitment of effort and 
resources for many years--possibly decades--to effectively 
address the problem. Several recent bills introduced by members 
of this committee take a comprehensive approach to this 
problem. This is a collective responsibility, and we as a 
Nation need to provide a healthier environment in which our 
children can grow up.
    Thank you for the opportunity to address this important 
topic, and I will be glad to answer questions at the 
appropriate time.
    Thank you.
    Senator Frist. Thank you.
    [The prepared statement of Mr. Brownson follows:]

             Prepared Statement of Ross C. Brownson, Ph.D.

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Ross Brownson. I am a professor of epidemiology and department chair at 
Saint Louis University School of Public Health. I also served as a 
member of the Committee on the Prevention of Obesity in Children and 
Youth of the Institute of Medicine.
    I am here to talk about our recent IOM report, Preventing Childhood 
Obesity: Health in the Balance, which was undertaken at the request of 
Congress and was released last Thursday, September 30. Our report 
provides the first comprehensive, evidence-based action plan for 
tackling the epidemic of childhood obesity on multiple fronts.
    We call for immediate action, given the alarming rate at which the 
incidence of childhood obesity is growing in America. Over the past 3 
decades, the obesity rate has more than tripled for children ages 6 to 
11 years. Obesity carries significant ramifications for children's 
physical and emotional health, in both the short and long terms, 
particularly the increased risk of developing diabetes and other 
chronic conditions. Our Nation has spent many billions of dollars to 
make incredible health advances related to genetics and other 
biomedical discoveries; yet these advances could be offset by the 
burden of illness and premature death caused by too many young people 
eating too much and moving too little over their lifetimes.
    Reducing rates of childhood obesity requires that children achieve 
and maintain a healthy energy balance--that is, the balance between 
amount of calories consumed and the amount expended through physical 
activity.
    The Federal Government must provide the leadership that is needed 
to make obesity prevention a national public health priority and 
therefore, the report calls for the establishment of a high level 
Federal task force to ensure coordinated budgets, policies, and 
programs. The report recommends pilot programs to explore changes in 
Federal food assistance programs that could promote healthy eating. We 
also urge an increase in resources devoted to obesity prevention 
programs, surveillance, and research, such as those overseen by the CDC 
and the NIH.
    Naturally, we call on parents and families to encourage their 
children to engage in regular physical activity, to provide them with 
healthy foods, and to serve as good role models. We recommend that 
parents limit television and other recreational screen time to no more 
than 2 hours a day.
    We call on schools, from preschool through high school, to 
implement nutritional standards set at the national level for all foods 
and beverages served on school grounds, including those dispensed by 
vending machines. Schools also should expand opportunities for all 
students to engage in at least 30 minutes of moderate to vigorous 
physical activity each day.
    The report also calls on the food, beverage, and entertainment 
industries to develop innovations related to healthier food and 
beverage product and packaging and to provide clear and consistent 
media messages promoting energy balance. Further, the report calls for 
the relevant industries to voluntarily develop and implement guidelines 
for advertising and marketing directed at children. Congress should 
give the Federal Trade Commission the authority to monitor compliance 
with the guidelines and establish external review boards to prohibit 
ads that fail to comply.
    Community organizations and local and State governments should 
expand programs and need to engage youth-centered organizations, faith-
based groups, and many other community partners. Local action should 
focus on improving the so-called ``built environment''--bike paths, 
sidewalks, and playgrounds--through capital investment and local 
zoning. For example, we must find ways for getting our children walking 
and biking to school again.
    Health care professionals have a vital role in preventing childhood 
obesity. They have the access and influence to discuss a child's weight 
status with parents, and can make credible recommendations on dietary 
intake and physical activity. We need to better train health 
professionals--to routinely assess body mass and to counsel patients 
and families on weight.
    Specific attention must be given to children who are at especially 
high risk for becoming obese, especially ethnic minority populations 
and families of lower socioeconomic status.
    As our Nation focuses on obesity and begins to address the societal 
influences that contribute to excess weight, poor food choices, and 
physical inactivity, many different groups, industries, and 
organizations will need to make difficult choices. Our report is 
calling for fundamental changes in our society on how we view childhood 
obesity--no single sector acting alone can solve it. Because the 
epidemic has taken years to develop, it will require a sustained 
commitment of effort and resources for many years--possibly decades--to 
effectively address this problem. Several recent bills, introduced by 
Members of this Committee, take a comprehensive approach to this 
problem. This is a collective responsibility and we, as a Nation, need 
to provide a healthier environment in which our children can grow up.
    Thank you for the opportunity to speak with you on this important 
topic. I would be glad to answer your questions.

    Senator Frist. Mr. DeStefano?
    Mr. DeStefano. Good morning, Mr. Chairman, Senator 
Alexander. It is a pleasure to be here. Thank you for inviting 
us this morning. It is a pleasure to give testimony in front of 
the committee, and we thank your committee for the leadership 
on this issue. We also want to thank the Senate majority leader 
for his leadership in sponsoring this bill and for the 
sponsorship of our great Senator, Senator Wyden, from the State 
of Oregon.
    It is a pleasure to be here with you this morning. We would 
ask that our testimony actually be recorded into the record----
    Senator Frist. It will be.
    Mr. DeStefano [continuing]. And I have been counseled to 
just dialogue with you about why Nike is here and what we are 
doing about this issue.
    Why Nike is here is probably because of our position as the 
leader within the sports and fitness industry, and probably 
because I hold the leadership position in that company. But 
that is not why we choose to work on this issue or why we 
choose to appear this morning.
    We choose to work on the issue and we choose to appear this 
morning because of the passion that we share about this issue, 
which is really heartfelt, as you shared this morning.
    The passion is also well-rooted in the company. It is a 
mission similar to the committee's objectives here. The mission 
of Nike is to provide innovation and inspiration to every 
athlete in the world, and we asterisk that comment about the 
athlete to say if you have a body, you are an athlete. It is a 
very inclusive statement, very inspiring and has helped us 
reach a number of children.
    What is Nike doing about this issue? We have created a 
signature program that was referred to by the Senator called 
NikeGO. It has a very simple strategy--to get kids active and 
give them the means to do it. It is a three-pronged strategy 
around giving kids content and programming. We have a unique 
way to connect with kids to inspire them to continue to be 
physically active.
    We want to create facilities for kids that are safe--we 
mentioned the safe playgrounds for kids earlier--and that they 
have access to; and last, advocacy. We have been told by many 
of our constituencies that Nike is putting its money where its 
mouth is, but one of the most important things Nike could do 
for those organizations is to actually put our mouth where our 
money has been. So we believe that advocacy is very important.
    On the content side, there are two real programs that Nike 
has featured in our testimony, one about Native Americans. 
Sixty tribal leaders visited the Nike campus this past year and 
asked us for help in creating programming for their tribal 
members. They had tremendous funding from the U.S. Government 
but needed a way to inspire their people to participate.
    They told us if you could increase activity levels 10 to 20 
percent, they could reduce their Type 2 diabetes by 40 to 50 
percent. We knew that was something that we could do. So we 
have taken up with them, and we have a goal established for 
ourselves to have 1 million Native Americans active by the year 
2006, and our programs are now working with 80 tribal leaders 
across the Nation.
    Second, with PE2GO, which was mentioned in the earlier 
testimony, we are reaching out to schools. We believe we have a 
captive audience in the schools. We are going to where the 
students are. We believe we should provide physical activity to 
students during the day at school.
    Nike has created a content-based curriculum through San 
Diego State University to provide content curriculum that could 
be led by any person in that organization at the school level. 
It could be led by you, it could be led by me, it could be led 
by any teacher, not necessarily a physical education 
specialist. We are very proud of that program, and we continue 
to work to roll that out; it is in six cities as we speak 
today.
    On facilities--safe and accessible facilities for children 
to play--Nike has a very innovative program where we have 
donated in 30 States across the Nation over 163 facilities, 
safe facilities, and actually, world-class facilities for 
children to participate in. That is very inspirational. I do 
not know when was the first time you ever walked into a major 
professional ball park, but the surface is the same as that 
found in the Seattle Seahawks stadium, or in what was found at 
the Sydney Olympic Games, billed as ``the greenest games.''
    This also serves a twofold purpose. We recycle over 16 
million shoes that would have gone into landfills to help 
create a safe and soft playing surface for these children. It 
has really become a tremendous program. I actually worked with 
some of the congressional staffers last year and the National 
Recycling Coalition on that program. So it is a very innovative 
program.
    On advocacy, in 2003, we co-funded ``Shaping America's 
Youth'' with the Surgeon General, Richard Carmona, in the 
Department of Health and Human Services. As mentioned earlier, 
the Surgeon General's office has really been a tremendous 
partner for us. The goal is to develop public and private 
partnerships and promote healthy lifestyles. So far, this 
organization has identified over 1,100 disparate organizations, 
all working on this issue, as Senator Harkin testified earlier.
    Our goal is to create a series of town halls across the 
Nation and to create a public forum, a public dialogue, and 
most important, a national action plan on this issue.
    In closing, I want to thank members of the committee, 
specifically the Senate majority leader, for your leadership 
and this committee's leadership. I want to again thank our 
Senator Wyden for his leadership on this and your invitation 
today to be with you.
    The pessimists would say we are tackling an enormous issue 
that cannot be solved. The optimists in all of us that I have 
heard in this room this morning would say that this is one of 
the few diseases for which we know the cause and we know the 
cure. We are happy to partner with you to provide both of those 
things, and we leave you here with our commitment to continue 
to provide innovation and inspiration to every athlete in the 
world.
    Thank you.
    [The prepared statement of Mr. DeStefano follows:]

                  Prepared Statement of Gary DeStefano

    Majority Leader Frist, Chairman Gregg, Senator Kennedy, Senator 
Wyden and other distinguished Members of the Committee. Thank you for 
the opportunity to speak to you today regarding Nike's strong support 
of The Childhood Obesity Reduction Act and the important role public-
private partnerships play in tackling this issue. Like all of you, we 
at Nike are very concerned about the current epidemic of youth 
inactivity among children in the United States. It is a troubling fact 
that as a result of inactivity and diet, today parents have a longer 
life expectancy than their children.
    As president of U.S. operations for the world's leading sports and 
fitness company and as a former physical education teacher, I am 
passionate about finding a solution to this national health crisis and 
proud to bring the commitment of Nike to work with you and others on 
this issue. Unhealthy weight results from two major sources: lack of 
physical fitness and poor nutrition. Nike's programs and efforts focus 
exclusively on the issue of physical fitness, and we trust that other 
companies will address nutritional challenges.

                              THE PROBLEM

    Today, I want to talk about the role physical inactivity plays in 
fueling this national epidemic that threatens our youth. Health 
professionals agree that kids should take part in a minimum of 30 
minutes of moderate to vigorous physical activity daily.
    Only one in four U.S. public school students attends regular P.E. 
classes. A 2000 study conducted by the CDC found that less than one in 
10 elementary schools and roughly one in 20 junior and senior high 
schools provide daily P.E. all year in all grades.
    We know the benefits of regular physical activity. Children who are 
physically active:
    <bullet> reduce their risk of cancer and their vulnerability to 
depression, anxiety and low self-esteem;
    <bullet> are more likely to graduate from high school;
    <bullet> are less likely to use drugs;
    <bullet> are less likely to have an unwanted pregnancy;
    <bullet> are less likely to join gangs;
    <bullet> are less likely to develop an eating disorder.
    The benefits of regular physical activity also extend into the 
classroom. A 2002 California Department of Education study found 
significant correlations between physical fitness scores and reading 
and math scores on standardized tests for middle school children. Those 
children who scored highest on the physical fitness tests also scored 
highest on the standardized tests. And a 1999 study published in 
Research Quarterly showed that students who spent up to 200 percent 
more time in P.E. class (compared to students who spent that same time 
in the classroom) did as well or better on standardized test scores.

          NIKE RESPONSE TO THE CHILDHOOD OBESITY REDUCTION ACT

    Nike is fully supportive of S. 2551, and we believe this important 
legislation is a critical component in tackling this issue. On behalf 
of Nike's 12,000 U.S. employees--6,275 of whom are in Oregon and 1,436 
in Tennessee--we applaud Majority Leader Frist's and Senator Wyden's 
leadership on this matter.
    The severity of this epidemic and its impact on our children's 
future requires new thinking and new approaches. The Childhood Obesity 
Reduction Act presents a unique opportunity for schools and communities 
to develop and implement real solutions to promote increased physical 
activity, reduce and prevent childhood unhealthy weight, and improve 
nutritional choices in schools.
    Through the proposed Congressional Council on Childhood Obesity and 
the creation of a National Foundation for the Prevention and Reduction 
of Childhood Obesity, elementary and middle schools across the country 
will have the opportunity to partner with public and private entities 
to create successful strategies to tackle this issue at the local 
level.
    Creating a Council and then a Foundation to support creative school 
programs is important for many reasons. First, it encourages creativity 
and rewards best practices for model programs. Second, it provides a 
convenient mechanism to garner additional private support for this 
growing crisis. However, as good as this legislation is, it alone won't 
solve this rising problem. A profound and long-term impact requires 
broader and other creative initiatives that must be well coordinated. 
We believe the Foundation created by this legislation could help play a 
key coordinating role.

                            NIKE'S APPROACH

    In many ways, Nike's own thinking and approach toward addressing 
this national epidemic are very similar. Nike has a long history of 
supporting sport and physical activity programs. But 3 years ago, as we 
began to get a better understanding of the scope and scale of this 
health problem, we raised the stakes. We started by talking to experts 
in the field about the root causes and cures, and the role Nike could 
play in helping to address the issue. We evaluated the most effective 
programs that address youth inactivity and unhealthy weight. We looked 
for innovative and creative approaches that address youth physical 
inactivity from all directions and at all stages of childhood.
    As a sports and fitness company, we know firsthand the value that 
daily physical activity can offer--both to kids and adults. And we 
recognize that through the power of our brand, we are in an excellent 
position to help tackle this issue. But we realize that as passionate 
as we are about getting kids active, we simply can't do this alone.
    That is why we created a long-term, multi-stakeholder initiative to 
address youth inactivity called NikeGO. We have partnered with 
organizations whose expertise brings greater impact to the programs we 
build for inactive kids and the parents, teachers and coaches who 
influence their behavior. And we are using this same partnership 
strategy with the advocacy efforts we launch regionally and nationally 
to drive policy-level changes on this issue.
    Today I would like to talk to you about four long-term NikeGO 
programs.

                                 PE2GO

    In the fall of 2003, NikeGO teamed up with an organization based at 
San Diego State University called SPARK (Sports, Play and Active 
Recreation for Kids) to create a program called PE2GO. SPARK is a 
research-based organization dedicated to creating, implementing and 
evaluating physical activity programs that promote lifelong wellness in 
children and youth.
    PE2GO is a national, standards-based program designed by Nike and 
SPARK to help increase the quality and quantity of physical education 
in schools where P.E. classes have been drastically reduced or 
eliminated. Nike and SPARK deliver custom curriculum, training and 
equipment to classroom teachers, not P.E. teachers, to enable them to 
teach P.E. to fourth and fifth grade students in schools where P.E. 
classes have been drastically reduced or eliminated.
    In the fall of 2003, PE2GO launched in six U.S. cities--Akron, 
Ohio; Chicago; Los Angeles; Memphis; New York; and Portland--reaching 
over 6,400 fourth and fifth graders in 43 elementary schools.
    Here is an astonishing fact: Many of us grew up with the ``old 
P.E.,'' which is still being taught to many of our kids today. PE2GO is 
designed to fix a significant problem plaguing those traditional P.E. 
classes, where kids spend only 3 and a half minutes of a half-hour 
class in active movement.
    PE2GO is part of the ``New P.E.,'' a movement where students no 
longer stand on the sidelines or in line waiting for a turn to play. 
All kids get the same opportunities to participate, develop skills and 
feel successful, and all kids are moving for the full 30 minutes.
    Classroom teachers are involved because in many districts P.E. 
specialists see students only once a week--insufficient frequency and 
duration to achieve health benefits.
    PE2GO provides schools with a self-contained, standards-based P.E. 
program that gives classroom teachers the tools to help get their kids 
moving 3 times a week for a minimum of 30 minutes each time.
    Based on an evaluation by the CDC, the first year of PE2GO 
demonstrated more than just physical benefits:
    <bullet> nine out of ten kids are more active, and enjoy it;
    <bullet> three out of four kids learned physical activities that 
can be enjoyed for a lifetime;
    <bullet> three out of four kids learned to cooperate with others 
and improve social skills;
    <bullet> classroom teaching skills improved;
    <bullet> majority of kids' sports and movement skills, as well as 
fitness levels, increased.
    Even more exciting, we see both teachers and kids develop a real 
commitment to the program. One of my favorite activities in this year's 
lesson plans was a game called ``Heart Attack.'' This innovative tag 
game teaches children about healthy lifestyle choices and the important 
role physical activity plays in combating heart disease. The game with 
the alarming name allows kids to come to each other's aid and rescue 
their peers by exercising with them after they've been tagged and given 
a risk factor by someone who's ``it.''
    In June of this year, we had the opportunity to demonstrate our 
interpretation of the ``New P.E.'' to Members of the Administration and 
Congress. Nike and SPARK were among the more than 50 organizations to 
participate in the HealthierUS Fitness Festival on the National Mall. 
The President's Council on Physical Fitness and Sports joined with 
Secretary of Health and Human Services Tommy G. Thompson; Secretary of 
Education Rod Paige; U.S. Surgeon General Dr. Richard Carmona; and 
Congressmen Zach Wamp and Mark Udall, Co-Chairs of the Congressional 
Fitness Caucus, to organize and showcase activities and resources 
available to get Americans moving for health.

   NATIVE AMERICAN DIABETES PREVENTION PROGRAM AND NIKEGO IN INDIAN 
                                COUNTRY

    Nike's Native American Diabetes Program is currently working 
closely with the diabetes program coordinators of some 80 tribal 
agencies across the United States. Nike provides product for their 
fitness promotion programs and partners with these tribes to offer 
mentoring and recreational events for the tribal population.
    Nike will also partner with the National Indian Health Board and 
Indian Health Services to launch a national fitness program called 
``Just move it'' targeted at tribal health programs, tribal schools and 
recreational programs with the goal of getting 1 million Native 
Americans active by 2006.
    Nike and IHS signed a Memorandum of Understanding (MOU) to 
collaborate on the promotion of healthy lifestyles and healthy choices 
for all American Indian and Alaska Natives. The MOU is a voluntary 
collaboration between business and government that aims to increase 
dramatically the amount of health information available to American 
Indian and Alaska Native communities. The goal of the MOU is to help 
those communities gain a better understanding of the importance of 
exercise at any age, particularly for those individuals with diabetes.

                       REUSE-A-SHOE/NIKEGO PLACES

    Creating places for youth to play is another component of NikeGO. 
For more than 11 years, the Nike Reuse-A-Shoe program has recycled and 
reused non-metal containing post-consumer and defective athletic shoes 
to turn them into NikeGO Places--sports surfaces such as football, 
baseball and soccer fields; basketball and tennis courts; tracks; and 
playgrounds.
    Since the program began, we've collected more than 16 million pairs 
of shoes, and have helped donate more than 170 NikeGO Places around the 
world. In 2002, to celebrate our 30th anniversary as an Oregon-based 
company, we made our largest one-time surface donation with a $2 
million gift to Portland Parks Foundation to resurface 90 existing 
outdoor basketball courts in 35 Portland parks. Our partnership with 
Portland Parks & Recreation continues with after-school and summer 
programs.
    Last year, Nike partnered with Congress and the National Recycling 
Coalition to collect shoes from congressional staffers to be used to 
build play surfaces. Senator Wyden has been a long-time advocate and 
supporter of the Reuse-A-Shoe program and recently sponsored and passed 
legislation to keep this program alive.
    Other partnerships include the U.S. Soccer Foundation, where 
together we have awarded eight $100,000 grants to be used toward world-
class FieldTurf soccer fields to eight communities including Beaverton, 
Ore.; Hampton, N.H.; New York, N.Y.; Richmond, Va.; and St. Louis, Mo. 
This recent award is part of a 5 year, $5 million partnership between 
NikeGO and the U.S. Soccer Foundation to promote the sport of soccer 
across the United States by awarding 50 communities grants to be used 
toward the installation of FieldTurf soccer fields.

                            NIKEGO ADVOCACY

    In addition to in-school and after-school programs and creating 
safe places for kids to play, we are also lending our support to 
advocate for public policies that will drive real changes on this 
issue.
    In November 2003, we co-founded Shaping America's Youth with the 
U.S. Surgeon General, the American Academy of Pediatrics, McNeil 
Pharmaceuticals, The Campbell Soup Company and others to develop a 
national, cross-sector initiative devoted to promoting physical 
activity and healthy lifestyles. A true private-public partnership, we 
launched the results of a 3 month national survey last week that 
identified nearly 1,100 childhood physical activity, nutrition and 
weight management programs nationwide. Some of the most revealing data 
points include:
    <bullet> Of those surveyed, upwards of an estimated $7 billion is 
being invested in operational programs in 2004;
    <bullet> 40 percent of surveyed programs are only funded for a 
single year;
    <bullet> Only 53 percent of programs had plans to measure outcomes 
and thereby determine effectiveness;
    <bullet> Only 4 percent of all programs have reported any outcomes;
    <bullet> 91 percent of those surveyed expressed a strong need for a 
national dialogue, creations of partnerships and a need for national 
standards.
    While the survey results highlight a significant commitment and 
level of investment, we have yet to make a real impact in reversing 
this trend. The need for a coordinated plan of action couldn't be more 
obvious. In March 2005, Shaping America's Youth will hold its first 
Town Hall Meeting in Memphis, Tenn., as part of a process to create 
shared language and recommendations that will lead to a national action 
plan. Majority Leader Frist, we welcome your participation in this 
event.
    Nike also believes that one of the ways we can help reverse this 
trend of youth inactivity is to call for companies, organizations and 
government to work together to help bring daily P.E., taught by P.E. 
specialists, back to schools. We are using our knowledge and resources 
to talk to policymakers around the country about the importance of 
daily physical educations classes.
    As you indicate in your legislation, children spend a considerable 
amount of time in school, and schools are a powerful motivator for 
helping kids adopt healthy lifestyles. Several studies demonstrate that 
school-based P.E. programs are one of the most effective ways to 
facilitate activity in our youth.
    In fact, a study released last month by the NIHCM Foundation found 
that expanding existing P.E. instruction nationwide to at least 5 hours 
per week for kindergarteners could reduce overweight levels in girls by 
43 percent and in children at risk for overweight by 60 percent. Those 
are stunning outcomes, at very little cost.
    By inspiring, enabling, and encouraging kids to be physically 
active, Nike has an opportunity to shape kids lives now, and help them 
form positive habits and attitudes that last a lifetime. This 
opportunity can be realized in traditional ways--through products that 
perform well, images that show movement and athleticism--and through 
innovative community affairs programs that provide the resources, 
facilities, gear and coaching that kids need.
    By reaching out to partners in the corporate, nonprofit and 
government arenas, we can help kids make changes and choices that 
remove obstacles between young people and physical activity. If we do, 
we can all help kids lead physically healthier lives and leave a legacy 
of strong mental, social and physical health.
    We thank you for your leadership on this issue and look forward to 
working with you.

    Senator Frist. Thank you. I thank all three of you.
    In many ways, this panel really captures the importance of 
the public-private partnerships, innovative programs, creative 
programs, combining scholarship, evaluation on what we do know 
and then to be able to shed more light on that and spread it 
around the country.
    I think many of the statements that were made just prior to 
this panel and during this panel to me do capture the 
excitement in many ways of being able to participate together, 
using government in a careful way, and the great dynamism and 
innovation that we know comes from the private sector together 
to address a problem that is real, whether it is the 
incremental economic impact on our medical system or the 
individual, whether or not one can live a fulfilling life. It 
is a mosaic, and it is going to take a corresponding mosaic of 
approaches, I think, to address it, and this panel really 
captured that.
    I need to slip back to the floor of the Senate but wanted 
to stay to listen to your testimony. Your written testimony, 
which goes into a lot more detail, has been and will be shared 
with all of our colleagues, and from that and with the 
commitment of the panel of Senators that you have heard today 
and the presentation by Senator Wyden, I hope that we reflect 
to you our commitment to the work that you do every day, all 
day long. To me, it is very, very exciting.
    So I wanted to thank you, and I am going to turn to Senator 
Alexander and ask him to complete an appropriate round of 
questioning and then terminate the hearing.
    Thank you all very much.
    Senator Alexander [presiding]. Thank you, Senator Frist, 
and thank you to the witnesses.
    I want to thank Senators Frist and Wyden for putting 
attention to this issue. The Senate operates in an unusual way. 
It operates by unanimous consent. So for the leader of the 
Senate to have been here for this much time is really pretty 
remarkable and shows his devotion to the subject. So I welcome 
his participation and Senator Wyden's as well.
    I have a question that I will ask the three of you, and I 
will then ask Senator Wyden if he has any comment or question, 
and then we will conclude the hearing.
    As I have listened and read your testimony, I have been 
thinking of three types of examples of dealing with this 
epidemic, as it has been called, and let me mention all three 
of them and see if you have any comment. Maybe one of these 
activities are already happening.
    No. 1, Mr. DeStefano, when I think of this issue, I think 
back to the eighties and illegal drugs and the American 
attitude toward drugs then. The problem is that as we went into 
the eighties, there was a body of opinion in America that said 
drugs were okay, and that had to be changed. One of the most 
effective measures that was taken to change that was media 
advertising, and one of the leaders of that effort, whose name 
I have unfortunately forgotten, was the chairman of Johnson and 
Johnson at that time. They put together a very skilled and 
sophisticated set of advertising.
    So that is point one, and I think of you particularly 
because you are so successful in your company with advertising 
and changing the minds of individuals.
    The second thing I want to ask about, really, because I 
have not kept up with it, is whether there are any national 
standards for physical fitness in elementary and secondary 
education today. When I was Secretary of Education, we were 
busy trying to implement the Education Summit that the first 
President Bush and Governors had in 1989, and that focused on 
math, science, English, history and geography. And I very well 
remember Arnold Schwarzenegger coming around to the Department 
of Education at the time, because he was visiting all the 
States, to encourage the addition of national standards in 
physical fitness to go along with math, science, English, 
history, and geography. These were not standards that 
Washington imposed on anyone. These were standards that States 
and local schools might adopt if they chose to, but they were 
very, very important. For example, in terms of mathematics, the 
National Council of Mathematics Teachers has basically 
revolutionized the mathematics curriculum in America in the 
last 20 years by standards that they did not impose on anyone 
but they just adopted themselves.
    So I wonder what is the status of standards?
    And the third question I want to ask, for any of you to 
comment on, is I had a visit the other day with Governor 
Huckabee of Arkansas, who has lost the weight of my wife 
himself. He has lost 105 pounds in the last year or 18 months. 
He will be chairman of the National Governors' Association in a 
year. He is obviously on a mission on this subject and could be 
a very important ally in the cause.
    While we in the Federal Government talk a lot about 
schools, we provide about 7 percent of the funding for schools, 
so all the action with schools really is State and local.
    He suggested--and this is the third point I wanted to ask 
you about--that in Arkansas, they were considering lower 
insurance rates for State employees who met their weight 
levels. I wondered if that is widespread or if that is a good 
idea.
    So my questions are, one, what about attitude-changing 
national media with the brilliance of Nike's advertising; 
number two, what is the status of national standards for 
physical fitness, do we have them, and have they worked; and 
three, what about the idea of government setting an example by 
offering--and we could do this in the Federal Government--
lower-cost health insurance to employees who meet certain 
weight standards?
    Mr. Potts-Datema. I can field the standards question, but 
does anyone want to take the advertising question first?
    Mr. DeStefano. I will do advertising if you do standards. 
That is a deal.
    Senator Alexander. Or you can all three do all three. Why 
don't we just go across, starting with you, Mr. Potts-Datema.
    Mr. Potts-Datema. That is fine.
    On the issue of standards, you are absolutely correct, 
Senator, that there are not required national standards. There 
are, however, voluntary standards in physical education that 
have been developed by the National Association for Sport and 
Physical Education. Some States have adopted those for their 
own standards.
    Let me also mention health education, because of course, 
nutrition education is a very important component of this. And 
there are also voluntary national standards in health education 
that have been really championed by the American Cancer Society 
but are currently under revision, with the American Association 
for Health Education playing a large role in that.
    The issue often is that while these standards are good, and 
they are quite helpful, of course, States have been really 
pressed, and local school districts have been very pressed, for 
resources in order to implement them fully. Very few States 
require health education or physical education standards, and 
no State to my knowledge assesses those standards.
    So of course, assessment is really required in order to put 
the type of emphasis behind those standards that needs to 
happen.
    The other issue, of course, in terms of resources is 
putting highly-qualified teachers in both health education and 
physical education programs and making sure that the facilities 
are available, and certainly, the leadership of the Senate and 
of Congress on the whole in the Physical Education for Progress 
Program has helped with that, and we appreciate the leadership 
that has been shown in that issue and providing those 
resources.
    Senator Alexander. Mr. DeStefano?
    Mr. DeStefano. Senator, we do believe that communication is 
a great weapon in this issue, and we have created a dialogue 
within our own company to talk about that. In 1995, you might 
remember a campaign called ``If You Let Me Play,'' where we 
focused on women and girls in sport and their opportunity in 
sport if you let them play. It was a very inspiring campaign, 
and if you look 10 years later, we just had the Women's U.S. 
National Team come through the city of Portland, and we saw 
20,000 people show up for that game, and some of those girls 
who had grown up and played their entire careers with idols 
such as Mia Hamm and great role models--I think that is one of 
the things that is a true benefit.
    So you will see us communicating about that this year, and 
as I said in my testimony earlier, we believe that advocacy is 
one of our roles and one of our responsibilities and something 
you will see us taking a larger voice in on this issue.
    Senator Alexander. Thank you.
    Mr. Brownson?
    Mr. Brownson. Yes, I would like to take the first and the 
third. On the first one, I think that the attitude toward 
obesity--at least the problem is pretty widespread now. We 
track media coverage as part of the IOM work, and the media 
coverage has been just enormous in the past several years.
    I think what we have less awareness of is the attitudes 
toward actually changing behavior and what are the effective 
strategies that could be implemented, and how do we do those as 
an individual and as part of a family and as part of a school, 
a PTA, and then as part of a community.
    I think that is the next step of this that we have not done 
very well at yet, but we have a lot of good ideas on the table 
for it.
    On the third one, I think it is an interesting idea. I do 
not think it has been that widespread, the issue of insurance 
breaks for people who meet standards. It has been done widely 
for nonsmokers, so there is precedent that it could be done.
    There had been talk about doing that for physical activity 
as well, but then you have the problem of how do you know if 
someone is needing physical activity or not. And you have some 
of the same issues here in terms of measurement, but I think it 
is an interesting approach that is an incentive-based program 
that could have an effect.
    Senator Alexander. Thank you for your comments.
    Everyone who wants to change the world wants to start with 
the schools because you have a captive audience. And I do not 
disagree with that at all, and as I mentioned earlier, and if 
you want to talk about an inspiring point for advertising--the 
public schools were Americanizing institutions. That is why 
they were created. If you come from a country where everybody 
looks the same, and their skin is the same, and they have lived 
there for centuries, that is one thing. But learning to play 
together with people from many different parts of the world is 
what America is, and that could be an adjunct to the health 
part of this, because it goes to the core of the nature of the 
public school.
    In our experience with our children, while the focus is 
properly on schools, most of the things that our children have 
decided to do that we told them to do, they have learned by 
example rather than by what we told them. In other words, if 
parents exercise and maintain the proper weight and eat right, 
that is probably the greatest possible way to affect children, 
and I do not have a solution for how to get parents to do it--I 
just know that in most of our experience, good examples work 
better than good sermons.
    I thank the three of you very much for coming. Your 
testimony and that of the previous panels is very useful to us. 
Senator Frist and Senator Wyden I know will treat this as a 
step along the path.
    I would like to call on Senator Wyden now for any comments 
or questions that he may have.
    Senator Wyden. Thank you, Mr. Chairman. I very much 
appreciate your thoughtfulness and just have a couple of 
questions.
    I think, running through the last couple of hours and the 
discussion we have had has been this whole debate with respect 
to how much can we get done through incentives--call it 
``carrots,'' if you will--and how much really requires a stick 
and some more aggressive kind of effort.
    It has been our sense, and it has been the thrust of this 
bipartisan bill I have with the majority leader, that we can 
get pretty far down the road with respect to dealing with this 
by incentives. But I would just be curious with respect to you 
three, and it is almost fitting that we wrap up a couple of 
hours' worth of discussion by focusing for a minute or two on 
this topic.
    Gary, maybe you could start. My sense is that if Nike--and 
you all have been wonderful leaders in this--in effect said to 
low-income youngsters there is going to be a pair of Nikes out 
there for all those of you who lower your blood pressure, lose 
weight, that those are the kinds of incentive that make a 
difference. But I am curious, and maybe you can start the 
discussion on that.
    Mr. DeStefano. As we have chatted before, I do believe that 
incentives and motivating people is a much better way than 
mandating behavior to people; so I agree with the Senator's 
comment on that. I think our finding ways to motivate and touch 
people's lives and give them access to that behavior that they 
want for themselves is the most effective way to make progress 
in this disease and this epidemic.
    So we are very much focused on that. It is really not our 
expertise to mandate or regulate, and we do believe it is our 
expertise to inspire and provide opportunities for kids to 
play, specifically focusing on children ages 8 to 15 years old. 
So that is really where we will put the focus of our programs 
and where we believe we can be the best partner for both 
government and for other institutions.
    Senator Wyden. Mr. Brownson?
    Mr. Brownson. Senator, the way I look at incentives, I 
think they are one important tool in this issue. 
Epidemiologists want to put everything into a table, so when I 
think of this as a table, I think of where kids spend their 
time--in their homes, in their schools, and out in their 
communities--and then, what influences their behavior--their 
families, their parents, their friends, the media--you have to 
include the media and advertising--and you have to include a 
lot of other influences like health care providers or others 
who might have contact.
    And then, within that table, you have to think of what are 
the things within each of those little squares that we could 
influence here at the national level and then what needs to 
come at the State and local level as well. And I do not have an 
example of exactly where the incentives would fit in those, but 
I think in each of those boxes, incentives would fit in in some 
way.
    I think the biggest concern we have had when looking at 
this--and I have done a lot of work in rural Missouri looking 
at this issue--is that even when people want to be physically 
active, sometimes the access is not there, so there is not a 
place where they can be physically active; or they want to eat 
healthy foods, and the foods are not available in their 
communities. So I think access is an important part of that as 
well.
    Senator Wyden. Mr. Potts-Datema?
    Mr. Potts-Datema. Senator, I think we have a good example 
of when appropriate resources are given to schools that schools 
can do good work in the fresh fruit and vegetable program, for 
instance, and the popularity of that program and the leadership 
of this body in helping to create that.
    I do believe that the quote-unquote ``stick'' issue is 
probably important as well, and as we mentioned about 
assessments earlier, the lack of health education and physical 
education assessments and the accountability that that provides 
is a real issue in schools, and helping schools with the 
resources to develop the capability to provide effective, 
comprehensive health and nutrition education and complete 
physical education programs within a coordinated school health 
program is really a vital piece of this and could go a long way 
toward affecting the childhood overweight epidemic.
    I might also mention that the types of public-private 
partnerships that we have talked about today, bringing in 
different partners from a diverse range of areas, can be very 
important to building the support that is necessary to getting 
the resources at the local and State level that the schools 
need in order to do this work. And public-private partnerships 
such as Action for Healthy Kids are working throughout the 
country to try to do that, but they are very nascent and need 
the support of this body and of everyone.
    Senator Wyden. I think that is a good point to close on, 
and Senator Alexander is generous. Senator Kennedy and I have 
talked a fair amount about this resources issue, and I think he 
is absolutely right, particularly with respect to low-income 
communities and low-income youngsters. We are just going to 
have to find a way to build a coordinated public-private 
partnership that is increasingly visible in this area.
    I started off a couple of years ago saying that I think the 
choice is really stark for this country--you can make a modest 
investment today along the lines of what you all and other 
witnesses are talking about, or you can pass on that investment 
and just play catch-up ball for decades to come, as our people 
experience all of these health problems and we rack up medical 
bills, diabetes costs, Medicare costs, Medicaid costs, on and 
on for years to come.
    So you all have been excellent.
    Mr. Chairman, let me also particularly thank Senator Frist, 
Senator Gregg, and Senator Kennedy's staffs for allowing me to 
sit in. I think what we saw today was the opportunity to build 
a really aggressive bipartisan coalition. We had superb 
witnesses and a lot of very important ideas laid out.
    I look forward to working with you as well; when we get 
both Senators from Tennessee in our corner, it doesn't get much 
better than that.
    I thank you for your thoughtfulness.
    Senator Alexander. Thank you, Senator Wyden.
    Thank you for your testimony, and thanks to all the 
witnesses and those who attended today.
    The hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                      Statement of Marshall Manson

    Chairman Gregg, Senator Kennedy, Members of the Committee, given 
the report earlier this year from the Centers for Disease Control and 
Prevention demonstrating that obesity and diseases caused by obesity 
are now leading killers In the United States, there can be no question 
that obesity is and ought to be a major health concern for all 
Americans. In recent months, this ``obesity crisis'' has attracted 
significant public and media attention.
    Among the central questions now are: whether and, if so, how the 
Federal Government should respond,
    Some would like to use the heightened focus on obesity to support 
their calls for increased Federal regulation of our food choices. 
However, these proposals reveal an underlying belief that Americans 
cannot make responsible choices about what to eat and drink. For 
example, in recent years some groups have pushed such radical 
regulatory steps as a new Federal tax on junk food, sodas, and other 
snacks (the so-called ``Twinkie tax''), granting the USDA complete 
authority to regulate all foods in schools nationwide with an eye 
toward banning sodas, cookies, candy and other snacks, and federally 
mandated labeling of restaurant menus with detailed nutrition 
information.
    These anti-food zealots seem to prefer that Americans eat a 
federally-mandated diet of lettuce, skinned apples, carrot sticks, and 
soy milk. Over the years, they have Identified dozens of foods that 
they claim should be eliminated or severely restricted from our diets. 
For example, spaghetti and meatballs, eggplant parmigiana, ham 
sandwiches, corned beef, pork chops, coffee, enchiladas, gyro 
sandwiches, and even luncheon meats. Heaven forbid you enjoy Chinese 
takeout. These groups have railed against mu shu pork, General Tso's 
chicken, lo mein, kung pao chicken, sweet and sour pork, and Chinese 
restaurants, in general. They have even warned against eating the most 
basic of American staples--apple pie.
    Their conclusions are based on an abundance of questionable studies 
and unsupported assertions. However, at this stage, critical scientific 
questions about obesity are far from settled.
    For example, several studies have concluded that there is no link 
between soft drink consumption and obesity while one study made 
headlines recently by arguing that there is such a link, There are 
conflicting studies over whether milk consumption among children is 
rising or falling. One study says that cutting soft drinks does not 
increase milk consumption. Another contradicts that conclusion.
    Perhaps the most enlightening, undisputed tidbit of scientific 
research about obesity comes from a study by researchers at the 
University of North Carolina-Chapel Hill. It analyzed health trends in 
adolescents over the last 20 years and found that while obesity 
increased 10 percent, physical activity decreased 13 percent and 
caloric intake remained nearly steady, up 1 percent.
    What role should the Federal Government have in combating obesity? 
First, we must recognize that there is no single cure-all for obese 
Americans. There are literally hundreds of causes of obesity, and there 
are as many solutions as there are causes. However, it's important to 
note that in and of themselves, sodas, hamburgers, hotdogs, candy, 
white breed, rice, potatoes, pasta, and even apple pie don't cause 
obesity. Instead, with the exception of medical conditions, obesity 
most often results from individuals eating too much while exercising 
too little.
    Nevertheless, there are limited steps that the government can take 
in a general campaign against obesity. For example, the Federal 
Government can continue and enhance its efforts to encourage 
responsible decision-making, promote increased exercise, and issue 
balanced dietary recommendations based on careful, unbiased science. 
For that reason, we applaud the kind of public-private partnership that 
the committee is discussing today. By helping educate children about 
how to make healthy food choices and promoting increased exercise, 
especially among children, these sorts of partnerships are precisely 
the best way for government to make a difference in the fight against 
obesity. Most Importantly, asking local schools, parents, and the 
students themselves to develop custom approaches to fighting obesity is 
the best way to make a difference.
    But above all, the Federal Government's role must, indeed, be 
limited. We must recognize that the Federal Government cannot and 
should not embark on a massive now regulatory scheme designed to make 
us all slimmer and trimmer.
    First, there are countless practical problems. Congress cannot 
possibly be expected to legislate effectively against obesity, There 
are too many causes and too many problems for an omnibus Congressional 
solution. Nor is it feasible for Congress to instruct a Federal 
regulatory authority to fight obesity through rule-making. Further, 
scientific understanding of human nutrition, diet needs, and the causes 
of obesity improves constantly. The government is ill-equipped to 
understand and integrate these advances into its legislation or 
regulation.
    Second, and more importantly, the Federal Government shouldn't be 
in the business of telling Americans what they can eat and drink. Our 
democracy is founded on the idea that individuals have basic freedoms. 
Among these, certainly, is the right to choose what we put on our 
plates and in our goblets. But the anti-food extremists would gladly 
take away that freedom and mandate our diet in order to save us from 
ourselves. It is time for these zealous anti food advocates to 
understand that it is not the Federal Government's job to save us from 
ourselves by making our choices for us.
    Obesity has been labeled a ``crisis'' in America. And such labels 
all too frequently spur a Congressional impulse to ``don't just sit 
there, do something.'' In this case, it's incumbent on Congress to 
resist this impulse. Let Americans continue to make free choices about 
what to eat and drink. Certainly, the Federal Government can and should 
continue to encourage us to make informed choices. Certainly, the 
Federal Government can and should help us understand what constitutes a 
balanced diet. And certainly, the Federal Government can and should 
help us sift through the myriad of scientific, (and unscientific) 
information about the right combinations of diet and exercise. Public-
private partnerships that advance these objectives while embracing 
local control and individual decision-making are precisely the right 
answer, and we applaud Senator Frist's proposal for that reason.
    But Congress cannot and should not start down the road of food 
regulation or punishment through taxation. In the end, Americans must 
make good choices and be responsible for their actions. Were it 
otherwise, we would not be truly free.
    The Center for Individual Freedom (www.cfif.org) is a 
constitutional advocacy organization dedicated to protecting individual 
freedom and individual rights.

    [Whereupon, at 12:22 p.m., the committee was adjourned.]

                                    

      

</pre></body></html>
